Report No. DODIG-2013-053                  March 13, 2013




               Special Plans and Operations



     Oversight of U.S. Military and Coalition Efforts to
      Improve Healthcare Conditions and to Develop
    Sustainable Afghan National Security Forces Medical
     Logistics at the Dawood National Military Hospital
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                                                                  March 13,2013

MEMORANDUM FOR SECRETARY OF DEFENSE
               DEPUTY SECRETARY OF DEFENSE
               COMMANDER, U.S. CENTRAL COMMAND
               COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
                 FORCE/UNITED STATES FORCES-AFGHANISTAN
               COMMANDER, INTERNATIONAL SECURITY ASSISTANCE
                 FORCE JOINT COMMAND
               COMMANDER, NORTH ATLANTIC TREATY ORGANIZATION
                 TRAINING MISSION-AFGHANISTAN/COMBINED
                 SECURITY TRANSITION COMMAND-AFGHANISTAN

SUBJECT: Oversight of U.S. Military and Coalition Efforts to Improve Healthcare Conditions
         and to Develop Sustainable Afghanistan National Security Forces (ANSF) Medical
         Logistics at the Dawood National Military Hospital
         (Report No. DODIG-2013-053/Project No. 020 12-DOOSP0-0163)

        We are providing this report for review and comment. This is the fo urth in a series of
repot1s published by the Office oflnspector General's Special Plans and Operations Directorate
that focus on the development of a sustainable medical logistics and healthcare capability in
support of the ANSF. We considered management comments on a draft of this rep01t from
International Security Assistance Force (ISAF), ISAF Joint Command and North Atlantic Treaty
Organization (NATO) Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan (NTM-A/CSTC-A) when preparing the final report.

        DOD Directive 7650.3 requires that recommendations be resolved promptly. We request
additional comments and information by Aprill2, 2013, as follows:

   •   Commander, Intemational Security Assistance Force - Recommendation La.
   •   Commander, ISAF Joint Command - Recommendation l .a.
   •   Commander, NATO Trai ning Mission-Afghanistan/Combined Security Transition
       Command-Afghanistan - Recommendations l.a, 2.a, 2.b, 3.a, 4.a, 4.c, S.b, S.d, 6.a, 6.b,
       and 7.c.

         If possible, please send your comments in electronic format (Adobe Acrobat file only) to
spo@dodig.mil. Copies of your comments must have the achtal signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).
                         Executive Summary: Oversight of
                         U.S. Military and Coalition Efforts to
                         Improve Healthcare Conditions and
                         to Develop Sustainable Afghan
                         National Security Forces Medical
                         Logistics at the Dawood National
                         Military Hospital
Who Should Read This Report?
Personnel within the Office of the Secretary of Defense, the Joint Staff, the U.S. Central
Command and its subordinate commands in Afghanistan, the Military Departments, and
Agencies that are responsible for and engaged in efforts to develop the capability of the Dawood
National Military Hospital (NMH) and an effective medical logistics system in support of the
Afghan National Security Forces (ANSF) should read this report.

Background                                                            Figure 1. Dawood National Military
During the fall of 2010, Department of Defense Office                    Hospital, Kabul, Afghanistan
of Inspector General (DoD OIG) became aware of
potential problems with the accountability and
distribution of pharmaceuticals at the NMH and within
the Afghan National Army (ANA), and management
issues specifically at the NMH. Accordingly, the DoD
OIG conducted several reviews 1 of the ANSF healthcare
system, which included visits to NMH in 2010 and 2011.

In November 2011, the Inspector General for the
Department of Defense conducted a walk-through 2 of
NMH as part of his annual official visit to Afghanistan.
During this visit, he noted improvements at the hospital   Source: NTM-A
which included better cleanliness of the hallways and patient rooms, but said that there was still
work to be done. Additionally, he expressed commitment to continued oversight and additional
visits by DoD IG personnel to evaluate NMH’s progress in achieving a sustainable medical
logistics and healthcare capability.



1
  DODIG reports SPO-2011-007, “Assessment of U.S. and Coalition Efforts to Develop the Medical Sustainment
Capability of the Afghan National Security Forces,” released June 14, 2011 and 2012-083 and “Additional Guidance
and Training Needed to Improve Afghan National Army Pharmaceutical Distribution” released May 7, 2012.
2
  The DoD Inspector General visited various departments within the NMH including the Pharmacy, Intensive Care
Unit, inpatient wards and the Operating Suite speaking with hospital staff and several patients.
                                                       i
A DoD IG team, which included U.S. civilians and former and retired military medical
personnel, visited the NMH in February and June - July 2012 to review the status of U.S. and
Coalition efforts to improve the healthcare management and treatment of patients in the NMH,
assess related sanitation conditions, and evaluate the medical logistics processes supporting
operations at the NMH.

Results
This report is divided into two parts: (1) Notable Progress, and (2) Challenges. The report makes
7 observations and 16 recommendations. The results are discussed therein.

Part I: Notable Progress
The report notes 11 examples where progress had been made in the areas of planning;
development of ANSF healthcare standards, including development of a tool to evaluate the
hospital’s achievement and compliance with these standards; focused pre-deployment training
for U.S. medical advisors; and initiatives to improve the treatment of patients and the healthcare
management at NMH, including hospital sanitation,
accountability of staff, and medical logistics support.

Part II: Challenges                                                        “Development of a
                                                                          professional medical
Although progress had been made since our previous visits in               corps will take time
2010 and 2011, and February 2012, International Security                      and constant
Assistance Force (ISAF), North Atlantic Treaty Organization                nurturing” (Source:
Training Mission-Afghanistan (NTM-A), and ANA Medical                      Senior Official from
                                                                            Combined Joint
Command (MEDCOM) continued to face challenges in
                                                                            Medical Branch,
sustaining effective healthcare operations and medical logistics          ISAF Headquarters,
for the NMH, as well as at other medical facilities within the                August 2012)
ANA. Specifically, ISAF and NTM-A needed revised policies
and procedures that ensured timely and informed decision-
making regarding the transfer of ANSF patients from Coalition
medical facilities to the NMH. Additionally, although improved, the control and security of
medications in the NMH pharmacy required additional work to prevent theft and
mismanagement of these medications. Furthermore, current practices at the NMH relating to the
availability and utilization of essential medical equipment, including patient monitoring units,
required improvement to ensure that this medical equipment was available for all patients that
could benefit.

Additionally, although the overall numbers of ANA medical personnel increased over the past
year, personnel shortages continued to affect the NMH, specifically in nursing and in the
pharmacy.

ANA hospitals also lacked qualified medical equipment repair technicians to sustain effective
medical equipment maintenance and repair programs. Although there were some improvements
noted in this program effort at NMH, the company contracted to conduct an inventory of all
medical equipment throughout the ANA was unable to do so because they did not have qualified
technicians coupled with other deficiencies; therefore the contract was terminated. Students
currently enrolled in the Bio-Medical Equipment Technician training program at the Armed
                                                 ii
Forces Academy of Medical Sciences were expected to provide some technical relief once they
completed phase 2 of their on-the-job training and graduate from the program in the 2nd quarter
of FY 2013.

Finally, improvements were needed in the logistics system to ensure the reliable availability of
disinfectants and other cleaning supplies necessary to properly sanitize the hospital and prevent
the spread of infectious disease.

Subsequent Measures Taken by NTM-A/CSTC-A
Following our February and July 2012 fieldwork in Afghanistan, NTM-A/CSTC-A continued to
develop healthcare management and improve operations at NMH and across the ANA healthcare
system.

Specific actions and ongoing efforts that we observed or were informed of by NTM-A/CSTC-A
included:

       • NMH improved physical security of controlled medications in their pharmacy bulk
         storage room and implemented adequate inventory control measures in the pharmacy
         dispensary, which will deter mismanagement, theft and waste of pharmaceuticals.
       • Continued cooperation and commitment by Coalition, ANSF and Government of the
         Islamic Republic of Afghanistan (GIRoA) officials to ensure that the ANA medical
         equipment Tashkil 3 includes only those items that are necessary, practical, and cost-
         effective to use, maintain, and replace.
       • ANA and MEDCOM established a process to procure and distribute disinfectants and
         cleaning supplies rather than rely on donations. Additionally, disinfectants and other
         cleaning supplies, such as bleach, hand sanitizer, and hand soap were added to the Class
         VIII Authorized Stockage List for medical supplies, which would allow ANA MEDCOM
         to have better control over the availability and distribution of these supplies.
       • NTM-A continued use of its Validation Tool to assess NMH progress and compliance
         with ANSF Healthcare Standards. The Command also focused mentoring efforts on
         those areas that had yet to achieve the appropriate readiness rating.

For detailed discussions of the foregoing observations and recommendations, please refer to the
respective sections in the report.

Recommendations requiring management comment are listed in the table on the next page.




3
    The Tashkil describes the authorized strength and structure of an ANSF organization.
                                                          iii
Recommendations Table

Office of Primary Responsibility Recommendations                  No Additional Comments
                                  Requiring Additional            Required At This Time
                                  Comment/Information
International Security Assistance 1.a
Forces
International Security Assistance 1.a
Forces Joint Command
NATO Training Mission-            1.a; 2.a, 2.b; 3.a; 4.a, 4.c;   4.b; 5.a, 5.c; 7.a, 7.b
Afghanistan (NTM-A)/ Combined 5.b, 5.d; 6.a, 6.b; 7.c
Security Transition Command-
Afghanistan (CSTC-A)




                                                iv
Table of Contents
EXECUTIVE SUMMARY ........................................................................................................... i
RECOMMENDATIONS TABLE .............................................................................................. iv
INTRODUCTION......................................................................................................................... 1
     Objectives ................................................................................................................................. 1
     Background ............................................................................................................................... 2
PART I – NOTABLE PROGRESS ............................................................................................. 5
     Working Toward Transition ..................................................................................................... 7
PART II – CHALLENGES ........................................................................................................ 17
     Observation 1. Transfer of ANSF Patients from Coalition Hospitals to the ANA National
                     Military Hospital .......................................................................................... 19
     Observation 2. Controls in the Pharmacy .............................................................................. 23
     Observation 3. Pharmacy Personnel Shortages ..................................................................... 27
     Observation 4: Nursing Personnel Shortages ........................................................................ 32
     Observation 5. Medical Equipment Repair and Maintenance Capability.............................. 38
     Observation 6. Availability of Essential Medical Equipment ............................................... 48
     Observation 7. Availability of Disinfectants ......................................................................... 53
Appendix A. Scope, Methodology, and Acronyms ................................................................. 57
Appendix B. Summary of Prior Coverage ............................................................................... 60
Appendix C. Summary of Previous DoD IG Work ................................................................ 63
Appendix D. Criteria .................................................................................................................. 67
Appendix E. Afghan National Security Forces (ANSF) Healthcare Standards and
            Development of Validation Tool ......................................................................... 69
Appendix F. Afghan National Security Forces (ANSF) Healthcare System Development
            Support Plan to COMISAF OPLAN 38302 ....................................................... 73
Appendix G. ANA Patient Bill of Rights ................................................................................. 75
Appendix H. Management Comments ..................................................................................... 76
This Page Intentionally Left Blank
Introduction
The North Atlantic Treaty Organization (NATO) International Security Assistance Force (ISAF)
has responsibility for the development of the military and police forces of Afghanistan and their
transition to an independent security role under the
Government of the Islamic Republic of Afghanistan
(GIRoA). ISAF’s two main subordinate commands, ISAF
Joint Command (IJC) and the NATO Training Mission-                  “Afghanistan, with a per-
Afghanistan/Combined Security Transition Command-                   capita income of US $561,
                                                                    is among the least
Afghanistan (NTM-A/CSTC-A), each have                               developed countries in the
complementary roles and capabilities with respect to the            world with 70% of the
development of the Afghan National Security Forces                  population living in extreme
(ANSF) 4 and its supporting healthcare system.                      poverty and health
                                                                                 vulnerability. The social
                                                                                 indicators, which were low
After the fall of the Taliban in 2001, the U.S. and                              even before the 1979
international Coalition forces developed a plan for creating                     Soviet invasion, rank at or
a national security force that included a military healthcare                    near the bottom among
system. Today, this healthcare system is comprised of                            developing countries,
several Afghan National Army (ANA) hospitals including                           preventing the fulfillment of
                                                                                 rights to health, education,
the Dawood National Military Hospital (NMH),                                     food and housing. Since
responsible for specialty medical care, which is located in                      the fall of the Taliban,
Kabul, the capital of Afghanistan.                                               important progress has
                                                                                 been achieved in all
This is the fourth in a series of reports published by the                       sectors, but much remains
                                                                                 to be done in order to reach
Office of Inspector General’s Special Plans and Operations                       a significantly strengthened
(SPO) Directorate focusing on the development of a                               social infrastructure, realize
sustainable medical logistics and healthcare capability in                       the rights to survival,
support of the ANSF. This report is self-initiated and is                        livelihood, protection and
particularly focused on the NMH.                                                 participation ...” (Source:
                                                                                 World Health Organization
                                                                                 Cooperation Strategy,
Previous reports on this subject are listed in Appendix B.                       dated May 2011)
Summary of Prior Coverage and may be viewed at
http://www.dodig.mil/spo/reports.html.

Objectives
On April 25, 2012, the DoD IG announced the “Oversight of U.S. Military and Coalition
Efforts to Improve Healthcare Conditions and Develop Sustainable Afghan National Security
Forces (ANSF) Medical Logistics at the Dawood National Military Hospital (NMH),” (Project
No. D2012-D00SPO-0163-000). The objectives of this assessment were to review the status
of U.S. and Coalition efforts to improve the:

       •    healthcare management and treatment of patients in the NMH,


4
    Afghan National Security Forces (ANSF) refers to the military and police security forces in Afghanistan.


                                                           1
    •    related sanitation conditions at the NMH, and
    •    medical logistics processes supporting operations at the NMH.

Background
Beginning in the fall of 2010, Department of Defense Inspector General (DoD IG) personnel
became aware of potential problems with the accountability and distribution of pharmaceuticals
at the NMH and within the ANA. Additionally, a joint inspection conducted by the NTM-A and
ANA Ministry of Defense Inspectors General in February 2011 identified deficiencies in the
medical logistics support and healthcare capability at NMH. Accordingly, DoD IG conducted
several prior reviews 5 of the ANSF healthcare system, which included visits to NMH in
December 2010, February 2011, and in the fall of 2011.

Previous news media accounts 6 reporting on poor patient care conditions and mismanagement at
NMH during 2010, as well as concerns expressed by U.S. Military medical advisors in 2011,
continued to focus attention on whether conditions are improving at NMH.

In November 2011 the Inspector General for the Department of Defense conducted a walk-
through 7 of NMH as part of his annual official visit to Afghanistan. During this visit, he noted
improvements at the hospital which included better cleanliness of the hallways and patient
rooms. Additionally, he expressed commitment to continued oversight and additional visits by
DoD IG personnel to evaluate NMH’s progress in achieving a sustainable medical logistics and
healthcare capability.

Consequently, a DoD IG team from the Special Plans and Operations Directorate, which
included medical personnel, visited the NMH in February and June - July 2012 to review the
status of U.S. and Coalition efforts to improve the healthcare management and treatment of
patients in the NMH, assess related sanitation conditions, and evaluate the medical logistics
processes supporting accountable and controlled supply operations at the NMH.

ANSF Health Care in Afghanistan
One objective of Coalition efforts has been to partner with the ANA and Afghan National
Police (ANP) to develop a healthcare delivery system able to provide for combat casualty care
and rehabilitation of Afghan soldiers and police country-wide.

Today, there are six Afghan hospitals that support the ANSF. The ANP has one hospital located
in Kabul, the capital of Afghanistan. The ANA has five hospitals; the 410-bed Dawood National
Military Hospital in Kabul and 100-bed hospitals located in Kandahar, Gardez, Herat and Mazar-
e-Sharif. There is a 6th ANA regional hospital under construction in Gamberi, Laghman
Province. See the map on the next page displaying the locations of the ANA hospitals.

5
  DOD IG reports SPO-2011-007, “Assessment of U.S. and Coalition Efforts to Develop the Medical Sustainment
Capability of the Afghan National Security Forces,” released June 14, 2011 and 2012-083, “Additional Guidance
and Training Needed to Improve Afghan National Army Pharmaceutical Distribution” released May 7, 2012.
6
  “At Afghan Military Hospital, Graft and Deadly Neglect”, Wall Street Journal, published September 3, 2011.
7
  The DoD Inspector General visited various departments within the NMH including the Pharmacy, Intensive Care
Unit, inpatient wards and the Operating Suite speaking with hospital staff and several patients.


                                                      2
                             Figure 2. Afghan National Army (ANA) Hospitals




Source: NTM-A



Dawood National Military Hospital
Built in the early 1970s by the Soviet Union, the NMH resides on a seven-acre medical campus
that encompasses the eight-story hospital, an out-patient complex named the Polyclinic, the
Armed Forces Academy of Medical Sciences, a garrison support facility, and a logistics complex
that includes a recently constructed medical warehouse. The NMH is under the command of the
ANA Surgeon General and is managed by an ANA Hospital Commander, and staffed by ANA
medical personnel. As of July 2012, there were approximately 260 patients hospitalized in the
NMH, the majority of whom were soldiers and police personnel and their families.

The hospital is responsible for the following services:

   •   Specialty Units: Intensive Care Unit (7 beds), Post-Operative Anesthesia Care Unit (3
       beds), Operating Room (6 suites), Hemodialysis Unit (5 beds), Emergency Room, and an
       Endoscopy procedure area




                                                 3
                                                       Figure 3. Dawood National Military Hospital
   •   General Wards: Medical/Surgical
       (Orthopedic, Septic, Burns, Ear Nose
       and Throat, Neurology, Obstetrics/
       Gynecology, Pediatrics, and Internal
       Medicine)
   •   Support Services: Pharmacy, Lab,
       Blood Bank, Physical Therapy,
       Preventive Medicine, Bio-Medical
       Equipment Maintenance and Repair,
       Logistics, and Mortuary Services

Medical Training Advisory Group
                                                     Source: DoD IG
The NTM-A Medical Training Advisory Group
(MTAG) was established in November 2009 to provide medical advisors for assignment to every
regional command and associated ANSF hospital in Afghanistan. These U.S. and Coalition
military and civilian personnel included doctors, nurses, administrators, logisticians, and clinical
services support and technical staff.

Their role has been to advise and train Afghan healthcare personnel on the provision of care to
the Afghan sick or wounded on the battlefield, in the operating room, the intensive care unit, on
the hospital wards, and at the supply depots. The MTAG has assisted in the management of the
health care system and its logistical support, the supplies
for which have been financed by U.S. Afghanistan
Security Forces Fund (ASFF) and also provided by
international donor contributions. MTAG advisors operate
                                                                   “Concentrate advising
in close partnership with their Afghan counterparts during
                                                                   efforts in the enhancement
the performance of their duties.                                   of Leadership Development
                                                                      and Education and Training
At the time of the DoD IG team visit, there were 15 medical           Lines of Effort. Incorporate
advisors assigned to the Medical Embedded Training Team in            Afghan Tier 1 Standards
                                                                      into the practice of
support of the NMH. Previously, there had been as many as
                                                                      continuous improvement
30 medical advisors assigned to NMH; however as part of the           and the development of a
withdrawal of U.S. and Coalition Forces, the number of                self-reliant, critical thinking,
advisors were scheduled to decrease to 9 in FY 2013. The              professionally-led ANSF
Commander, NTM-A/ CSTC-A, through the NTM-                            medical staff.”
A/CSTC-A Command Surgeon, monitors and supports the                    MTAG NMH Mission
                                                                      Statement
activities of the mentors. As such, they prioritized the
mentor’s activities to focus on those areas required for
NMH to transition to an independent role.




                                                 4
PART I – NOTABLE PROGRESS




            5
This Page Intentionally Left Blank




                6
The DoD IG has been engaged in providing ongoing oversight with respect to the U.S. Military
and Coalition efforts to develop the Afghan military healthcare system, including the Dawood
National Military Hospital (NMH), since 2008 8. Specifically, we conducted five assessments,
two criminal investigations and one audit. A description of the major findings from each project
is summarized in Appendix C.

Working Toward Transition
An important goal of U.S. and Coalition forces in Afghanistan is to successfully transition
security responsibility to the Afghan government. The continued development of an effective
ANSF healthcare system, among other enabler functions, is critical to achieving success as the
transition proceeds to 2014, and beyond. Through the efforts and leadership of ISAF, ISAF Joint
Command (IJC), and NTM-A/CSTC-A working at all levels of the Ministry of Defense (MoD),
Ministry of Interior (MoI), and Ministry of Public Health (MoPH), progress has been made in
laying the foundation for building an effective ANSF healthcare system, including at Dawood
NMH in Kabul, Afghanistan.

Development of Operational Plans
In 2008, DoD IG recommended in its report that the complexity of medical stabilization and
reconstruction challenges in Afghanistan called for a robust U.S. interagency and international
effort to assist deployed U.S. military medical personnel in developing and implementing a
detailed, multi-year planning strategy. However, in 2010 ISAF had yet to develop along with the
MoD an integrated operational plan to coordinate their
joint efforts to build an effective ANA healthcare
system. 9 The lack of effective joint planning resulted
in uncoordinated and inconsistent efforts to develop                “By completing the 92
ANA medical leadership and institutional capability.             milestones by December 31,
                                                                            2014, the transition plan’s
ANSF Healthcare System Development                                        design will provide the ANSF
                                                                         with the training and resources
Support Plan                                                              to operate a military medical
ISAF, with input from IJC, NTM-A/CSTC-A, United                          healthcare system that is self-
States Forces-Afghanistan (USFOR-A) and ANSF                              reliant, adequate by regional
                                                                        standards, and capable enough
leadership developed and published a medical
                                                                          to provide care for the entire
transition plan in November 2011. The ISAF vision                         ANA and ANP in their role of
supporting this planning effort, and the ANSF                                providing security to an
Healthcare System development effort overall, was                      independent Afghanistan, free of
“quality warrior care, from point of injury through a                   ISAF support.” (Source: Senior
                                                                          Official from Combined Joint
professional, ethical, effective, and efficient medical
                                                                              Medical Branch, ISAF
system, to recovery and discharge, for the nation’s                       Headquarters, August 2012)
defenders.”


8
  “Assessment of Arms, Ammunition, and Explosives Control and Accountability; Security Assistance; and
Sustainment for the ANSF” (SPO-2009-001), dated October 24, 2008 was the first DoD IG report to address the
development of the Afghan military healthcare system. Other reports are listed in Appendix B.
9
  DoDIG report “Assessment of the U.S. Department of Defense Efforts to Develop an Effective Medical Logistics
System within the Afghan National Security Forces” (SPO-2011-007), dated June 14, 2011.


                                                       7
The November 2011 transition plan, called the ANSF Health System Development Support Plan,
contained a total of 92 milestones and decision points. Progress in implementing the 2011
transition plan is monitored through monthly Principals Group 10 and quarterly General Officer
Steering Committee meetings with representation from ISAF, IJC, NTM-A, ANA and Afghan
National Police (ANP) Surgeons General Offices, and the MoPH. According to ISAF, the
milestones were deliberately front-loaded to the beginning of 2012 in order to generate
momentum and allow flexibility if adjustments in future progress time-lines became necessary.
(Refer to Appendix F: “ANSF Healthcare System Development Support Plan” for additional
details of what is included in the ISAF plan.)

NTM-A/CSTC-A Medical Advising Plan
In support of the November 2011 ISAF plan for the development of the ANSF Healthcare
System, NTM-A released their corresponding plan in January 2012 with a stated transition
objective as follows:

                 “An interdependent, professionally led-ANSF health function which generates
                 and sustains sufficient police and army medical personnel, infrastructure, and
                 logistics capabilities, with accountable and effective health services that support
                 the ANSF.”

The NTM-A plan defined five “lines of effort” (LOE) and relevant objectives which focused the
efforts of U.S. and Coalition medical advisors as they assisted the ANSF medical forces to fully
transition operations to Afghan lead by the end of 2014. Specifically, efforts focused on:

     • LOE 1: Training and Education – Develop and implement the Warrior Care specialty
       producing programs in the ANSF
     • LOE 2: Ministerial Development – Establish a functioning medical staff organization at
       MoD, MoI, ANA Medical Command (MEDCOM) and ANP Office of the Surgeon
       General (OTSG)
     • LOE 3: Institutional Development – Develop institutionally coherent commands with the
       ANA MEDCOM and ANP OTSG
     • LOE 4: Direct Provision of Healthcare – Established using Tier 1 11 Warrior Care
       standards for the ANSF
     • LOE 5: Enabling Efforts for Transition – What ISAF, IJC and NTM-A/
       CSTC-A must accomplish internally in order to enable the efforts of LOEs
       1-4

Both ISAF and NTM-A recognized that in order to achieve success, ANA MEDCOM would
have to partner with the ANP Office of the Surgeon General and the MoPH to create a single,
accountable, effective, and enduring ANSF Healthcare System, one with sufficient resources to



10
   The Principals Group is a monthly forum where key leaders from the three ISAF medical headquarters (HQ ISAF
Combined Joint Medical Branch (CJMED), IJC CJMED, and NTM-A Command Surgeon meet with the ANA and
ANP Surgeons General, and one general officer level MoPH deputy, to discuss progress made on the ANSF
Healthcare System transition plan.
11
   Tier 1 refers to the basic capabilities and functions of a healthcare system.


                                                          8
achieve ANSF Tier 1 healthcare standards within a larger GIRoA healthcare system with
equivalent standards of care.

ANSF Healthcare Standards and Validation Tool
Decades of warfare and turmoil contributed to the inadequate development of Afghan military
medical services. Consequently, U.S. and Coalition efforts to mentor ANSF medical personnel
were focused on addressing these significant shortcomings.

In 2010, the DoD IG identified that the ANSF lacked clearly defined healthcare standards and
end-state objectives that were needed to guide U.S. and Coalition mentoring efforts. 12 NTM-A’s
response to this reported finding resulted in the establishment of appropriate healthcare standards
for the ANSF. Additionally, NTM-A developed a criteria-based survey tool to evaluate the
progress of the Afghans in their compliance with the established healthcare standards.

ANSF Healthcare Standards
In 2010, NTM-A/CSTC-A awarded a contract to CURE International, a non-governmental
organization (NGO), to develop operational and procedural standards for specific GIRoA
hospitals. In 2011 the contractor tested the use of these standards at various ANSF hospitals,
and they provided training to ANSF medical personnel on how to use and grade the standards.
The healthcare standards developed by CURE International used what was referred to as a
“tiered” approach, whereby successive tiers represented a graduated measurement of healthcare
capability based on defined standards and criteria. Specifically, Tier 1 standards demonstrated
functions of a basic, self-sustaining healthcare system; Tier 2, a self-sustaining healthcare system
with limited advance capabilities; and Tier 3 standards represented advanced capabilities
including criteria to address medical professional credentialing
and advanced certifications.
In April 2012 CURE International delivered their final product                       “These independent
to NTM-A/CSTC-A. In coordination with ANA MEDCOM,                                 assessments by NTM-A
                                                                                      have also enjoyed
these standards were adopted and are now referred to as the                               unexpected
“ANSF Healthcare Standards.” (See Appendix E for additional                            corroboration as
information and a listing of the focus areas for the established                       witnessed by the
healthcare standards.)                                                             performance of several
                                                                                   of these hospitals and
                                                                                  their staff when reacting
NTM-A/CSTC-A Validation Tool and Inspections                                      to recent mass casualty
In December 2011, NTM-A/CSTC-A developed an inspection                             events in Afghanistan.”
checklist and survey tool using the criteria listed in the newly                  (Source: Senior Official
established ANSF healthcare standards. NTM-A/CSTC-A’s                               from Combined Joint
                                                                                    Medical Branch, ISAF
Validation Team used the survey tool, referred to as the NTM-A                     Headquarters, August
Validation Tool, to assess a hospital’s compliance with the Tier                             2012)
1 healthcare standards.


12
  DoD IG report “Assessment of the U.S. Department of Defense Efforts to Develop an Effective Medical Logistics
System within the Afghan National Security Forces” (SPO-2011-007), dated June 14, 2011.



                                                       9
Beginning in December 2011, the NTM-A/CSTC-A Validation team used the survey tool to
inspect ANA hospitals, including the NMH. The team scored each hospital department and
specific functional area by assessing their degree of compliance in meeting the relevant criteria
for each standard. (See Appendix E for additional details and a summary of the NTM-A/CSTC-
A Validation Team’s results for all ANSF hospitals.)

NTM-A planned to use the Validation Tool to conduct quarterly assessments of all ANSF
hospitals. Additionally, the NTM-A Validation team worked side-by-side with the ANA
Validation Team from MEDCOM’s Quality Improvement, Standards, and Metrics Division to
conduct the required inspections during the second round of assessments that began in May 2012
and ended in October 2012. An NTM-A official reported that this joint effort was a success and
supported the development of the ANA to continue their own inspections on a semi-annual basis
and established independent institutional capacity to provide oversight of ANA medical
operations.

Although the ANSF Healthcare Standards and Validation Tool were used by ANA MEDCOM
and other ANA medical personnel, they were not codified in an MoD decree or related directive.
Notwithstanding this fact, the team noted that ANA medical personnel use the ANSF Healthcare
Standards as a means to determine what additional work is required to improve their ability to
meet the established standards. NTM-A advisors indicated that they also use the ANSF
Healthcare Standards and the results of the Validation Team’s inspections to guide and prioritize
their mentoring and advising efforts.

Capability Milestone Ratings and Readiness to Transition
According to a senior NTM-A official, three factors were used to determine the readiness of an
ANSF hospital to transition to independent Afghan management: Infrastructure, Functionality
(based on achieving Tier 1 of the ANSF Healthcare Standards), and Sustainability. Specifically,
the NTM-A Validation Tool is used to assess compliance with the Tier 1 ANSF Healthcare
Standards and was key in determining the level of functionality of a particular facility.

The scores derived from the Validation Tool were used to assess the level of compliance by
individual hospital departments based on established standards. The scores were then compiled
into a metric to determine a Capability Milestone (CM) rating for each area assessed, as well as
an overall CM rating for the hospital. The CM ratings range from CM-1A to CM-4 and are
based on the level of current capabilities that serve to forecast when the hospital will most likely
be ready to transition to Afghan lead. A score of CM-1B is the stated goal for transition and
indicates that a hospital is capable of executing functions with coalition oversight only. (See
Appendix E for additional details on CM ratings and the results of the Validation inspections for
all ANSF hospitals in 2012.)

Progress Noted in CM Ratings at NMH
NTM-A conducted its first inspection of NMH using the Validation Tool in January/February
2012. The second inspection was conducted in May 2012. According to NTM-A reports, NMH
achieved a CM-1B rating in May 2012 which was a “significant improvement” compared to
February 2012. This rating indicated that the hospital could accomplish its mission with minimal
coalition assistance for continued performance and improvement. NTM-A reports recommended


                                                 10
that the NMH implement additional Standard Operating Procedures, improve training offered to
the staff, and better organize specific departments. (Table 1 provides a comparison of the CM
Ratings for the various departments within the NMH.)
                                     Table 1. NMH Departmental Capability
                              Milestones (CM) Ratings - February 2012 and May 2012
          NMH                                                              Feb-12                   May-12
          Anesthesia                                                       CM2B                     CM2A
          Bio-Medical Repair                                               CM2B                     CM1B
          Blood Bank                                                       CM1B                     CM1A
          CSSD                                                             CM2B                     CM1A
          Dental                                                           CM1B                     CM1A
          Emergency                                                        CM2B                     CM2A
          Facilities Management                                            CM2B                     CM1B
          Human Resources                                                  CM1B                     CM1A
          ICU                                                              CM2A                     CM1A
          Infection Prevention                                              CM3                     CM1B
          Internal Medicine                                                CM2A                     CM1A
          Laboratory                                                       CM2A                     CM1A
          Leadership Council                                               CM1B                     CM1A
          MEDLOG                                                           CM1B                     CM1A
          Nursing                                                          CM2B                     CM1A
          Operating Theater                                                 CM3                     CM1A
          Outpatient                                                       CM2A                     CM1A
          Patient Administration                                           CM1B                     CM1A
          Pharmacy                                                         CM2A                     CM1A
          Physical Therapy                                                 CM1B                     CM2A
          Preventative Medicine                                            CM2A                     CM2A
          Radiology                                                         CM3                     CM1B
          Ultrasound                                                        CM3                     CM1B
          CT                                                                CM3                     CM2A
          MRI                                                               CM3                     CM2A
          Surgery                                                          CM1B                     CM1A
          OVERALL RATING                                                   CM2A                     CM1B

          Color-Coding is based on the level of CM rating with red as the lowest level of CM-4; Orange as CM-3;
          Yellow as CM-2B; and variations of green for CM-2A, CM-1B and CM-1A. CM1B is the goal to
          determine the readiness towards transition

          CM-4 indicates the institution cannot accomplish its mission.
          CM-3 indicates the institution cannot accomplish its mission without significant coalition assistance.
          CM-2B indicates the institution can accomplish its mission with some coalition assistance.
          CM-2A indicates the institution is capable of executing functions with minimal coalition assistance.
          CM-1B indicates the institution is capable of executing functions with coalition oversight only.
          CM-1A indicates the institution is capable of autonomous operations with reduced coalition oversight.
          Source: NTM-A




                                                             11
Specific Progress Observed at National Military Hospital
In accordance with the former DoD             Figure 4. DoD IG Analyst Reviewing Contents of
Inspector General’s stated                                    Storage Room
commitment to continue oversight of
the NMH, we made an unannounced
visit to the hospital in February 2012.
We followed this by conducting a
more detailed announced assessment
in June - July 2012. During both
events we interviewed U.S. medical
advisors, NMH personnel, patients
and their families, as well as toured
several patient wards, the Intensive
Care Unit, the pharmacy, and the
medical logistics warehouse. A
discussion of salient points and the
progress we noted from previous
visits to NMH are presented below.
Other findings and their                Source: DoD IG SPO
corresponding recommendations are addressed in Part II of this report.

Physical Environment and Sanitary Conditions at the Hospital
In general, the areas of the hospital we visited in February and July 2012 appeared neat and
uncluttered. Although most supply closets on the patient wards we visited were clean and
organized, a few were not. Several of the charge nurses took great pride in keeping their supply
closets clean and orderly and did so regularly. Charge nurses on other patient wards were not as
organized and claimed they needed additional storage shelves to properly organize their supplies.
NMH logistics personnel removed              Figure 5. Supply Room on ANA Orthopedics Ward
excess supplies and broken or
unused medical equipment from the
patient care areas. Once the excess
supplies and equipment was
collected the logistics personnel
returned the unneeded equipment to
ANA Logistics Command
(LOGCOM) for re-issue to other
commands. NTM-A advisors
informed that 27 storage containers
filled with excess items and
equipment were properly
inventoried, documented, and
transferred to LOGCOM.
During our July 2012 visit, the NMH Source: DoD IG SPO
Director for Administration


                                                12
explained that he increased the number of             Figure 6. Disinfectants and Cleaning Supplies
housekeepers which made it easier to properly           Available During July 2012 DoD IG Visit
maintain the cleanliness of the hospital. We found
that the hospital wards were properly stocked with
Dettol (a disinfectant cleaner), Max (an abrasive
powdered cleaner), and other cleaning supplies.
Additionally we noted the housekeeping staff used
the appropriate disinfectant solutions to properly
clean the patient care areas. This was an
improvement over our February 2012 visit during
which we observed housekeepers mopping the
floors with plain water because the proper
cleaning supplies, including a disinfectant solution
were not available. (See Observation 7,
“Availability of Disinfectants” for a discussion on Source: DoD IG SPO
the unreliable availability of disinfectants.)

Patient Care Conditions
                                                        Figure 7. ANA Patient Bill of Rights Posted in
In November 2010 the ANA MEDCOM                                       NMH Hallway
instituted a patient bill of rights that established
minimal standards for hospitalized patients.
The ANA Patient Bill of Rights addressed the
following:

    •   entitlement to free medications,

    •   frequency of visits by physicians and
        nursing staff,

    •   cleanliness of the hospital including clean
        patient linens,

    •   clean bandages and frequency for
        changing,

    •   edible food including fruits and
        vegetables, and a

    •   physician’s explanation of the patient’s
                                                        Source: DoD IG SPO
        illness and intended treatment plan.

In February and July 2012 we observed posters throughout the hospital displaying the patient bill
of rights written in Dari with pictures representing the relevant information. (Appendix G
contains a copy of this poster.) Although we did not see similar posters in the patient rooms, the
NMH Chief of the Medical Staff explained that Patient Administration personnel presented and


                                                   13
reviewed the bill of rights with all patients when they were admitted to the hospital. Procedures
were in place for the patient to sign and acknowledge their understanding of these rights upon
their admission. Furthermore, the Chief of Nursing assigned a nurse to make daily patient
rounds and question patients about whether their rights were being met, and, among other things,
whether they were satisfied with the care they were receiving.
During our tour of the wards in July          Figure 8. Amputee Patient on Orthopedic Ward (clean
2012 we interviewed numerous patients                     sheets and clean bandages)
and their families to determine their
understanding of the patient bill of
rights and whether they believed their
rights were being met. In all responses,
patients and/or their family members
replied positively. We observed that
patients we interviewed had clean bed
linens and pajamas, their bandages and
dressings were clean and properly
applied, and the patient rooms were
tidy with clean floors, and ward
bathrooms were clean. Furthermore,
patients explained they received
medications as ordered by their
physician. All of the patients we
                                           Source: DoD IG SPO
interviewed stated that they did not pay
for any medications or medical supplies
that were used in their care.
During both of our visits in February and July of 2012 we did not observe malnourished or
neglected patients. U.S. medical advisors stated that patients at NMH were provided adequate
care by ANA medical personnel given the conditions and current state of healthcare in
Afghanistan. Additionally, NMH had implemented a nutritional services program to help
address the challenge of caring for patients with complex medical conditions.

Actions and Accountability of NMH Personnel
Prior to our visits in 2012, there had been reports of ANA physicians and other personnel leaving
work early to pursue other private employment opportunities. We did not see or hear evidence
of this during our two visits. The NMH Commander implemented new reporting procedures in
February 2012 to ensure accountability of hospital personnel. The NMH Chief of Nursing
developed and implemented several policies and procedures to better account for the attendance
and performance of patient care duties by nursing personnel. Both U.S. medical advisors and
ANA NMH leaders expressed confidence that the newly appointed ANA Surgeon General was
responsible and dedicated to improving the support and accountability of ANA medical
personnel.
During our later visit in July 2012, we received no reports or complaints related to the attendance
or accountability of NMH personnel. In fact, to enforce the policy changes, we were informed



                                                14
that staff members had been disciplined and not paid when they were not at their assigned place
of duty.

Medical Logistics Support
The Class VIII 13 Supply Warehouse on the NMH compound was completed in the fall of 2011
and became fully operational in 2012.
                                                  Figure 9. NMH Logistics Personnel Review Recently
We found that the NMH medical                   Developed Automated System Used to Account for Medical
logistics personnel participated in                  Supplies and Pharmaceuticals in the Warehouse
training on the logistics directives
contained in MoD Decree 4.0. 14
Additionally, they were provided
training to other NMH personnel who
also were required to utilize the MoD
logistics forms.

We observed that U.S. medical
logistics advisors assisted NMH
medical logistics staff in developing
an automated system that enabled the
Afghans to better account for medical
supplies and pharmaceuticals in their
warehouse. Although this automated
system was only recently
implemented, the Afghans were           Source: DoD IG SPO
excited and proud to display the new technology and appeared eager to complete the required
data entry. This system should enable NMH to completely automate inventory control measures
for their medical supplies.

Allegations of Corruption and Inappropriate Behaviors at NMH
During our site visits in February and in July 2012, we did not receive any allegations of
wrongdoing or corruption at NMH. U.S. medical advisors and NMH leaders reported that
previous allegations of corruption, fraud, and other complaints at NMH had been reported by the
Command and were being pursued by GIRoA authorities including the Attorney General’s
Office, National Directorate of Security (NDS), High Order of Oversight Anti-Corruption and
the MoD.
To augment the ANA anti-corruption policy, the Chief of Nursing for NMH implemented an
internal policy to allow nursing personnel to submit a complaint of wrongdoing to be considered
by legal authorities and the Commander of NMH. Additionally in 2012, NTM-A implemented
policy and procedures to facilitate medical advisors’ ability to report any issues of concern
relevant to their mission at the NMH. Our interviews with U.S. advisors and NMH personnel

13
  Medical material, including equipment and supplies, is referred to as Class VIII.
14
  MoD Decree 4.0 describes the common procedures, formats and forms for the communication of logistic
information between supported activities and the supply and materiel management of the MoD.


                                                     15
indicated that they were aware of the respective NTM-A and NMH reporting policies and
procedures.

Medical Advisor Pre-Deployment Training
In 2010 we found that pre-deployment training for medical
advisors did not include specific training for the missions    “He (the new ANA Surgeon
that they would perform. During our July 2012 visit             General) has introduced a
NTM-A advisors explained that former members of the              sense of urgency into the
NTM-A Medical Training Advisory Group (MTAG) had                  development of the ANA
provided personal insights into the medical mentoring          medical service both at the
                                                                  hospital level and across
program and suggested specific changes for inclusion in         the Army. He is energetic,
the pre-deployment training for medical advisors at Fort       inspiring to his people, and
Polk, Louisiana. Discussions with current medical                fearless in shaking up the
advisors indicated that an additional 2-week training               status quo.” (Source:
program focused on the medical mentoring mission had                 Senior Official from
                                                                  Combined Joint Medical
been included in the Fort Polk training. Although the                   Branch, ISAF
mentors we interviewed in July had only been in                    Headquarters, August
Afghanistan for a short period of time, their initial                       2012)
assessment of the value of the new training was positive.

In summary, we found that the recently developed ANSF
Healthcare Standards established defined goals for the NMH as well as for the entire ANSF
healthcare system. Additionally we observed that NMH had made progress in several key
management and performance areas and that patients appeared well-cared for and satisfied
generally with the care they were receiving. Part II of this report discusses some of the
challenges that remained at the time of the inspection. Regardless of these challenges, new
leadership at ANA MEDCOM and NMH appeared committed to continuing the progress towards
meeting transition goals.




                                               16
PART II – CHALLENGES




         17
This Page Intentionally Left Blank




               18
Observation 1. Transfer of ANSF Patients from Coalition
Hospitals to the ANA National Military Hospital
The decision-making process to determine whether and when ANSF patients will be transferred
from Coalition hospitals to the NMH had not been established or properly coordinated.

This was due, in part, to the absence of a written policy and clear procedures between Coalition
and ANSF medical facilities that established and standardized the conditions under which
patients were transferred from one medical facility to another. Additionally, the NMH
personnel assigned to coordinate the transfer of these patients did not have the requisite clinical
skills to determine whether the NMH possessed the necessary clinical capability and capacity to
properly care for patient.

As a result, the NMH accepted the transfer of ANSF and other Afghan patients, for whom they
could not effectively provide proper medical care, putting the health and safety of these patients
at risk. Furthermore, these acutely ill patients accepted for transfer required ANSF medical
personnel to dedicate a disproportionate amount of time and hospital resources to the care of
these patients, detracting attention from the needs of other patients in the NMH.

Applicable Criteria
Afghan National Security Forces (ANSF) Healthcare System Development
Support Plan to COMISAF OPLAN 38302, dated November 28, 2011. This
transition plan was developed by ISAF to guide Coalition efforts in their assistance to the ANSF
in the development of their healthcare system. The transition objective for the ANSF was
focused on Warrior Care 15, providing health support to the ANSF members from recruitment
through discharge in both outpatient and inpatient settings.

NTM-A/CSTC-A BASEORD 2012-2014, “DCG Ops Command Surgeon,”
dated January 9, 2012. This plan was developed in response to ISAF’s transition plan and
identified the lines of effort and supporting objectives that NTM-A used to focus its advisory
efforts for the development of the ANSF medical system.

ISAF Standard Operating Procedure HQ, 01149, “ISAF / Coalition Medical
Rules of Eligibility,” dated December 15, 2011. This procedure outlined and
established a consistent statement of eligibility and entitlement to ISAF and Coalition Force
medical care and transportation provision for patients and casualties within the Combined Joint
Operational Area.

Discussion
The primary objective of the ISAF/Coalition medical mission is to provide medical treatment
and force health protection to ISAF/Coalition Forces. ISAF policies direct that “Humanitarian


15
 ISAF defines ‘Warrior Care’ as caring for the ANSF member from recruitment throughout his time in the ANSF
which includes care aimed at the prevention of ill health, and treatment of any illness or injury while serving.


                                                       19
law and medical ethics oblige all medical services to provide emergency care in cases where life,
limb or eyesight would be jeopardized without immediate intervention.” As such, ANSF
personnel and other Afghan civilians (Local Nationals) who were injured and/or sick have
regularly been brought to Coalition medical facilities for evaluation and treatment.

Another objective of the ISAF/Coalition medical
mission is to enable “an Afghan to care for an
Afghan.” In support of this mission to further                          “Quality warrior care, from point of
develop the ANSF healthcare system,                                     injury through a professional,
ISAF/Coalition medical professionals must                               ethical, effective and efficient
                                                                        medical system, to recovery and
determine when it is appropriate to transfer an                         discharge, for the nation’s
Afghan patient from an ISAF/Coalition medical                           defenders.”
facility to an Afghan facility. Given that the NMH                      ISAF’s vision for the development
is identified as an Echelon IV 16 medical facility, it                  of the ANSF Healthcare System
serves as the main referral center receiving Afghan
patients transferred from Coalition hospitals and
other ANSF regional hospitals.

Concerns Expressed by ANA Surgeon General
During our fieldwork the Command Surgeon for ISAF Joint Command (IJC) and U.S. Forces –
Afghanistan (USFOR-A) shared that the ANA Surgeon General had concerns that some Afghan
patients had been transferred from Coalition hospitals to NMH inappropriately. The ANA
Surgeon General had said that several patients died soon after their transfer to NMH and that
their medical condition may have been too critical to be properly treated at NMH. He was
concerned that these patients were transferred when the NMH did not have the requisite level of
medical equipment and personnel to care for these patients at that point in their treatment and
recovery.

The ANA Surgeon General presented information to the IJC Command Surgeon asserting that in
a two-month period ISAF/Coalition medical treatment facilities transferred 137 patients (110
ANA soldiers, 17 Afghan National Police (ANP), and 10 civilians) to the NMH. Of these
patients, 13 (1 ANA, 3 ANP and 9 civilians) later died of their wounds. The ANA Surgeon
General asked for assistance from the IJC Command Surgeon to review relevant information on
those patients who had died.

IJC Review
After review of the available information 17, the IJC Command Surgeon determined 12 patients
who died soon after they were transferred to the NMH were suffering from wounds which were


16
   Afghan run healthcare facilities are identified as Echelon II through Echelon IV. Echelon II facilities exist at the
ANA Troop Medical Clinics and ANP Regional and Provincial Clinics and offer primary care as well as initial
damage control and stabilization of trauma prior to hospital transfer. Echelon IV capabilities include those offered
at the lower echelons of care as well as advanced care such as specialist surgical and medical services, increased
ICU capabilities, preventive medicine, dentistry, eye care, inpatient neuropsychiatry, advanced diagnostic services to
include CT and MRI, full physical rehabilitation, and capacity for convalescence.
17
   Medical records for 12 of the 13 patients in question were available at the time of the IJC review.


                                                         20
likely to be fatal, and would not have survived no matter where they were transferred and the
level of care that was made available to them.

The IJC Command Surgeon explained that although these patients were transferred based on
established ISAF policies and procedures, he believed that the capacity and clinical capability of
the NMH might not have been fully considered when the decision to transfer was made.
Furthermore, he concurred that more needed to be accomplished to ensure the proper
coordination of care for ANSF patients transferred to the NMH and other GIRoA medical
facilities.

Notwithstanding the goal and desire for continued development of the ANSF healthcare system
and the end-state of Afghans caring for and managing the treatment of their own injured or
wounded from the point of injury until recovery, the IJC Command Surgeon commented that
these war-related catastrophic injuries presented a great challenge to the Afghans. He stated that
the ANSF medical personnel did very well given their training, experience, and medical
equipment available to them. He explained that certain resources found in western hospitals were
not available in the Afghan hospitals, using as an example ventilator support. The NMH did not
have the same ventilator equipment and supplies that were available in the Coalition hospitals.
Due to an immature but developing medical logistics system, the NMH, at times, lacked the
required expendable medical supplies such as ventilator tubing to make them effective.

Current ISAF and MEDCOM Policies/Practices
Current ISAF policies provided for the
                                                    Figure 10. DoD IG Analyst Speaking with ICU Staff
medical treatment of ANSF and Afghan
civilian patients in ISAF and Coalition Forces
medical treatment facilities, but did not
identify in sufficient detail the criteria to be
applied for determining the suitability of
Afghan patients for transfer to the local
Afghan healthcare system.

The Ministry of Defense did not have a policy
pertaining to the transfer of Afghan patients
from Coalition medical treatment facilities to
GIRoA healthcare facilities. Notwithstanding
the lack of a written policy, the ANA Medical
Command and NMH established a practice of
using an English-speaking Afghan liaison             Source: DoD IG SPO
officer to serve as the single point of contact to
coordinate planned patient transfers to the NMH. This individual, however, did not have the
clinical acumen necessary to ensure that the NMH was capable of providing the necessary
clinical services support for these critically injured patients being considered for transfer.

In summary, the decision-making process regarding patient transfers from Coalition facilities to
the NMH was lacking and may have jeopardized the health and recovery of some patients. The
ANA medical personnel assigned to coordinate the transfer of patients from other medical


                                                   21
facilities to the NMH did not have the requisite clinical skills to determine whether the NMH had
the necessary clinical capability to properly care for patients. As a result, the NMH received
ANSF and other Afghan patients for whom they could not effectively provide the proper medical
care, putting the health and safety of these patients at risk.

Recommendations
 1.a. ISAF, in coordination with IJC, NTM-A, MoD-Health Affairs and the ANA Surgeon
 General, develop and implement policy and procedures that guide the transfer of patients
 between Coalition and other GIRoA medical facilities. These policies should be applicable to
 the Coalition medical facility when they transfer a patient, and to the GIRoA medical facility
 that would receive the transferred patient. Additionally, these procedures should include a
 determination that addresses the acuity of the patient, and ensures that suitable ANA medical
 personnel and the appropriate medical equipment are available prior to the transfer of the
 patient.


Management Comments
ISAF, IJC and NTM-A/CSTC-A concurred with Recommendation 1a. NTM-A/CSTC-A noted
that ISAF, in conjunction with MoD-HA, ANA SG, MoPH, Afghan National Police Surgeon
General and Coalition medical facilities would continue to develop and refine policy and
procedure guidelines as Casualty Evacuation (CASEVAC)/Ground Evacuation procedures were
validated.

Our Response
ISAF, IJC and NTM-A/CSTC-A’s comments to Recommendation 1.a were partially responsive.
We request a timeline for the development and revision of policy and procedure guidelines
governing the transfer of patients between Coalition and other GIRoA medical facilities.
Additionally, please provide a copy of the CASEVAC/Ground Evacuation procedures that are
currently undergoing validation as they apply to the transfer of patients to the NMH.




                                               22
Observation 2. Controls in the Pharmacy
The inventory of pharmaceuticals 18 in the NMH pharmacy dispensary room was not managed
effectively. Specifically, the pharmacy did not employ necessary manual or automated inventory
accountability methods and controls in the dispensing area.

Additionally, controlled substances 19 were stored in the NMH pharmacy bulk storage room in a
small container that was not secured to the wall or the floor.

This was due primarily to the lack of clear and concise policies and standard operating
procedures (SOPs) for the control of pharmaceuticals. MEDCOM did not identify specific
inventory control procedures for pharmacy dispensary areas, nor were adequate levels of control
defined to ensure the security of controlled substances.

As a result, the lack of controls in the NMH pharmacy dispensary area and improper security
measures for the storage of controlled substances could result in mismanagement, theft, and
waste of pharmaceuticals.

Applicable Criteria
MEDCOM policy dated Solar Year 1391 “Policy Regarding Control of
Medications.” This policy provided guidance pertinent to accountability and control
measures in ANA pharmacies to prevent waste and misuse of medications. Specifically, it
addressed the stocking and control of medications, distribution of medications to eligible
patients, and required accountability reports.

ANA National Military Hospital, Kabul “Policies and Procedures of the
Pharmacy Department” Revised Solar Year 1391. This manual described the
policies and procedures pertinent to the pharmacy at NMH. Specifically, under “Security”, the
procedures required that medications and consumables be kept in a locked area, and that
controlled substances are kept in a separate locked area. Additionally, under “Organization of
Storage Areas”, the procedures described that each item’s storage location is clearly labeled with
its contents and a stock card that contains a running tally of the balance of medication present.

Discussion
The pharmacy at NMH was comprised of two adjacent rooms. One room served as the bulk
storage area and contained a 60-day supply of the authorized stockage list (ASL) of the Class
VIII pharmaceuticals including controlled substances such as narcotics. The pharmacy
dispensary was located in the second room and contained a five-day supply of all medications
(approximately 10 percent of the pharmacy ASL).


18
  Pharmaceuticals pertain to items in a pharmacy and medicinal drugs
19
 A controlled substance is any drug or therapeutic agent, commonly understood to include narcotics, with a
potential for abuse or addition, which is held under strict governmental control, as delineated by the Comprehensive
Drug Abuse Prevention and Control Act passed in 1970.


                                                        23
The pharmacist used the smaller quantities of medications in the dispensary room to prepare and
dispense medications for valid physician prescription orders. The supply of medications in the
bulk storage room was used to re-stock the medication bins in the dispensary room to maintain
the appropriate quantities for a five-day supply.

Inventory Control Measures                    Figure 11. Use of a Manual Inventory Control System in
                                                      the Bulk Storage Area of the Pharmacy
Inventory control procedures in the bulk
storage room included the use of index
cards to identify the name and quantity of
available medications. The pharmacist
updated these cards according to the
quantities of medications that were added
subsequent to supply orders received, or
removed based on what was needed to
restock the dispensary room. Monthly,
the pharmacist conducted a review
ensuring that the inventory was properly
reconciled with the required MoD supply
forms. According to an NMH pharmacist
and his advisor, this new system improved
the accountability and inventory control   Source: DoD IG SPO
procedures in the bulk storage room of the
pharmacy.

The dispensary section of the pharmacy, however, did not employ such a system of manually
accounting for the quantity of medications and updating their inventory as the stock levels were
depleted. It was unclear which, if any, inventory control procedures were used in the pharmacy
dispensary.
                                              Figure 12. Implementation of Inventory Control System
The NMH Pharmacy SOP manual                        in the Pharmacy Dispensary - September 2012
identified that pharmacists were
responsible for the inventory and
accountability of pharmaceuticals;
however, this SOP manual did not
provide the necessary detail to ensure
that the proper steps for inventory control
were followed in all areas of the
pharmacy.

Subsequent to our visit, NTM-A
provided additional information that
NMH took corrective action and
implemented the same inventory control
measures in the pharmacy dispensary that
                                         Source: NTM-A
were in place in the bulk storage room.




                                                 24
Control and Security of Controlled Substances
Based on recommendations from a DoD IG audit on ANA pharmaceutical distribution, NMH
implemented changes in how they store and secure controlled substances. They removed the
controlled pharmaceuticals from the open          Figure 13. Storage Container for Controlled
shelves in the pharmacy bulk storage room                    Substances – July 2012
where they were previously stored with
uncontrolled pharmaceuticals. Additionally,
NMH obtained a storage locker to store their
controlled pharmaceuticals and locked the
container per their regulations.

During our visit in July 2012 we found that the
controlled substance storage locker, although
an improvement over the previous method of
storing controlled substances, was not properly
secured to the floor or wall. The new storage
locker was small enough that it could be easily
lifted and carried away by two personnel.
                                                  Source: DoD IG SPO
Current MEDCOM policy and NMH policies and procedures identified that the security of
controlled medications was required. However, these policies did not provide enough detail to
describe the adequate measures necessary to prevent theft of the controlled substances. The
policies should describe the required containers   Figure 14. Installation of New Storage Container
or storage areas and the means by which to              for Controlled Substances – Sept 2012
physically secure the controlled substances.

Subsequent to our visit, NTM-A explained that
NMH took action to improve the physical
security of the controlled substances container.
NMH Pharmacy personnel transferred the
controlled substances into a large, lockable filing
cabinet and then, using screws and bolts,
physically secured the filing cabinet to the
storage shelving in the pharmacy bulk storage
room.

These procedures appear effective as a measure
in deterring the theft of narcotics and other
controlled substances. Additionally, the drawers
in the filing cabinet allowed for the medications
to be stored separately and simplified the
monthly inventory process.

In summary, the lack of effective guidance led to
ineffective procedures for accounting and
reconciling pharmaceuticals in the NMH                 Source: NTM-A



                                                  25
dispensary and securing controlled substances in the pharmacy bulk storage room. Although
steps were taken to improve the pharmacy’s methods for inventory control, MEDCOM and
NMH policies required updating to codify procedures for inventory control and physical control
of controlled substances.

Recommendations
 2.a. NTM-A, in coordination with MEDCOM and NMH, ensure that policy is established to
 identify appropriate inventory control measures for each area where medications are stored
 including pharmacy storage rooms, dispensing areas and patient wards.

 2.b. NTM-A, in coordination with MEDCOM and NMH, ensure that policy guidance is
 established to clearly define the proper security measures for controlled substances, including
 the appropriate storage container and physical means to secure the container.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 2.a noting that they were working with
MEDCOM and NMH to develop a Pharmacy SOP that contained inventory control measures for
medications stored in the Pharmacy Dispensing Room, Pharmacy Depot, Pharmacy Duty Room,
and Hospital Wards. Specifically, the practices defined in the SOP included the use of stock
cards to maintain running tallies of shelf inventory, limiting personnel access, maintaining Ward
logbooks, and specifying the periodicity of taking inventory.

NTM-A/CSTC-A concurred with Recommendation 2.b noting that action was completed and
that current policy clearly outlined inventory control through the use of MoD forms, stock cards,
and logs. Additionally, the conduct of regular inventory verifications and unannounced
inspections and security of controlled substances including personnel access and escort lists and
locked depots, dispensing rooms, and cabinets were also addressed in current policy.
Furthermore, additional protective vaults and narcotic cabinets were requested via NATO
funding to better secure the controlled medications.

Our Response
NTM-A/CSTC-A’s comments to Recommendations 2.a and 2.b were responsive. We request a
copy of the revised Pharmacy SOP including the new inventory control measures for
medications stored in the Pharmacy Dispensing Room, Pharmacy Depot, Pharmacy Duty Room,
and Hospital Wards when completed. Additionally, we request that in six months, NTM-
A/CSTC-A provide a copy of the controlled substances inventory verification reports and results
of recent unannounced inspections confirming that procedures were followed to ensure that
controlled substances were properly secured.




                                                26
Observation 3. Pharmacy Personnel Shortages
The National Military Hospital (NMH) did not have a sufficient number of pharmacists to
properly dispense medications and manage the pharmacy.

This is due, in part, to the demands placed on NMH pharmacists to manage the 60-day
authorized stock list (ASL) for 518 Class VIII pharmaceuticals and non-pharmaceutical medical
consumables. Additionally, there were an inadequate number of pharmacists at NMH compared
to the ANA regional hospitals.

Consequently, a shortage of pharmacists impacted the ability of NMH to safely and effectively
dispense medications. Specifically, the lack of pharmacists impacted their ability to conduct
proper quality control measures that were necessary for the effective ordering, receipt, and
control of pharmaceuticals. Additionally, a shortage of pharmacists placed a burden on the
remaining pharmacy personnel limiting their ability to conduct training for the medical and
nursing staff at NMH.

Applicable Criteria
Afghan National Army – Approved Tashkil - 1391 National Military Hospital
– Personnel. This document is the approved Afghan National Army personnel authorization
for the NMH for the current solar year 1391. It provided detailed authorization by paragraph/line
numbers, rank, military occupational skill, additional skill identifier(s), position, and required
strength, by department.

NTM-A/CSTC-A “Standards for ANA Hospitals – Pharmacy.” This document
provided a listing of standards and criteria for the Pharmacy Department that was developed for
ANA hospitals. The criteria are varied and labeled as Tier One, Tier Two and Tier Three, based
on increasing levels of healthcare complexity.

NTM-A/CSTC-A “Validation Standards for ANSF Hospitals: Pharmacy.” A
rating tool that provided standards and criteria used to evaluate a department’s performance
according to Tier One of the ANSF Healthcare Standards for pharmacy departments.

Standards for the pharmacy department include the following:

   •   manning and organization of the department,
   •   Standard Operating Procedures including procedures to maintain a formulary, dispense
       medications to outpatients, prepare inpatient medication orders, and inventory and control
       measures for pharmaceuticals, and
   •   ordering, accepting delivery, and stocking of pharmaceuticals.

Discussion
The 1391 Tashkil identified a total of 10 personnel for the NMH pharmacy including 5
pharmacists, 4 pharmacy assistants, and 1 data entry clerk. Of the five pharmacists; one served



                                               27
as the director of the Pharmacy, two served as Quartermasters 20 and two were Dispensing
Pharmacists 21 who were involved with the dispensing of medications and other pharmacy duties
to include inventory, checking expiration dates, establishing medication usage and consumable
supply rates and professional training for pharmacy department personnel. See below for a
listing of authorized position on the 1391 Tashkil for the NMH Pharmacy.

                                   Table 2. 1391 Tashkil for NMH Pharmacy
               Rank        MOS         Position                           Required Authorized
               LTC         85AO5       Pharmacist (Compound Mix)                    1               1
               MAJ         86AO4       Pharmacist (Accountant)                      1               1
               MAJ         86AO4       Combined Medicinal Pharmacist                1               1
               CPT         85AO3       Pharmacist (Quartermaster)                   1               1
               1LT         85AO2       Pharmacist (Quartermaster)                   1               1
               G5          86AE5       Pharmacy Assistant (Supply)                  2               2
               G5          86AE5       Pharmacy Assistant                           2               2
               R7          85AO2       Data Entry Clerk                             1               1
              Source: 1391 Tashkil for NMH


Impact of Pharmacy Personnel Shortages
At the time of our visit, the NMH Pharmacy Director and the NTM-A Pharmacy Advisor stated
that additional pharmacists were needed to ensure the proper operation of the pharmacy at NMH.
Additionally, an NTM-A Validation Team inspecting the NMH in May 2012 identified a need
for additional staff in the pharmacy.
                                                          Figure 15. ANA Nurse Explaining Medication Cart
During our tour of the patient wards in July
2012, we found several expired
medications that were brought to the
attention of one of the NMH pharmacists.
He explained that the pharmacy was
understaffed, but that additional
pharmacists would ensure that a pharmacist
was available to make rounds in patient
care areas where they could check for
expired medications, among other things.

He also added that he was asked to provide
training to both the medical and nursing
staff, but was unable to do so due to the
limited time he had available after                    Source: DoD IG SPO

20
   A pharmacy quartermaster is a trained pharmacist who supervises the receipt, storage, and issuing of medications,
equipment and consumable supplies and is responsible for organizing the pharmacy depot and establishing stock
levels of medications and consumable to meet the current needs of patients.
21
   The Tashkil does not identify a pharmacist specifically as a dispensing pharmacist; however, any pharmacists can
be used to dispense medications.


                                                          28
completing his primary duties.

Nursing staff should be responsible for checking medication expiration dates prior to
administering the drug to a patient. However, this may not always be done and puts patients at
risk of receiving expired medications. Using pharmacists in patient care areas to check for and
discard expired medications is an additional control measure to ensure patients receive effective
medications.

Subsequent to our visit, an NTM-A advisor explained that the NMH added two hospital
personnel to serve as pharmacy technicians to augment pharmacy operations. Although adding
staff to the pharmacy can assist with staffing shortages, these additional staff members were not
trained as pharmacists and could not dispense medications, thereby offering little relief to the
current pharmacists’ workload.

Duties of Pharmacy Personnel
Dispensing Pharmacists were responsible for the dispensing of high quality medications and
ensuring that medication was not wasted due to improper selection or use. Specific duties
include the following:

   •   fill inpatient and outpatient prescriptions using the five rights of medication
       administration (right patient, right drug, right dose, right route, and right time/frequency
       for administration),
   •   ensure dispensed medications are of adequate quality and within the expiration date,
   •   ensure appropriate packaging of medications,
   •   record all medications dispensed and received,
   •   provide medication counseling, and
   •   provide professional training for pharmacy department personnel.

The Pharmacy Quartermaster duties included, among others, ordering and managing the
inventory of the authorized stockage listing (ASL) of 518 Class VIII pharmaceuticals and non-
pharmaceutical medical consumables. Additionally they were responsible to manage a 60-day
supply of Class VIII pharmaceuticals in the pharmacy bulk storage area and a 5-day supply in the
pharmacy dispensary.

According to an NTM-A official, the number of items in the ASL for Class VIII pharmaceuticals
increased from previous years, thereby increasing the workload of the Pharmacy Quartermaster.

Although dispensing medications was not identified as one of the duties of a Pharmacy
Quartermaster, we did observe the quartermaster dispensing medications and counseling patients
at the time of our visit. This was likely due to increased workload demands on the Dispensing
Pharmacist.

Comparison of ANA Pharmacy Requirements
An NTM-A advisor explained that there were an inadequate number of pharmacists at NMH
compared to the other ANA regional hospitals.



                                                29
The ANA has four Role 2/Echelon III level 22 regional hospitals and each hospital has a
pharmacy with 3 pharmacists authorized according to the 1391 Tashkil. Although the regional
hospitals were authorized 100-beds they typically averaged an occupancy rate of 30 patients
each.

The NMH is a Role 3+ / Echelon IV level with a capacity of 410 inpatient beds and has an
average occupancy of 255 patients. NMH was authorized five pharmacists according to the 1391
Tashkil.

The number of pharmacists authorized for each hospital was based on the number of authorized
beds and not on the average occupancy or patient census. Although the NMH has a much higher
average patient census, the number of pharmacists authorized does not appear proportionate to
the number of patients when compared to the regional hospitals. See below for a comparison of
pharmacists to the number of inpatient beds at each ANA hospital.

         Table 3. Comparison of ANA Hospital Size and Number of Pharmacists Authorized by Location

     Hospitals        Authorized # of Beds        Average # of Inpatients             Pharmacists Authorized

     NMH                      410                           255                                  5
     Gardez                   100                              30                                3

     Mazar-e-Sharif           100                              30                                3

     Herat                    100                              30                                3
     Kandahar                 100                              30                                3
     Source: DoD IG SPO

The higher patient volume and pharmacy workload placed increasing demands on NMH
pharmacy staff. Additionally, NMH policy and procedures limited dispensing responsibilities to
the Dispensing Pharmacist, of which there were only two. Although we observed a Pharmacy
Quartermaster assisting in the dispensing of medications, the logistical duties of the
quartermaster were all-encompassing and their time should be focused on Pharmacy policies and
procedures which are dedicated to the receipt, storage, issuing and accounting of medications.

In conclusion, we believe there were insufficient pharmacists at NMH and that this shortage
hindered pharmacy operations. Additionally, the lack of available pharmacists could adversely
affect the safety and health of patients receiving medical care at NMH. An increase in the
number of pharmacists at NMH would provide the means to ensure that medications are properly

22
   Role 1 – 3+ / Echelon II-IV healthcare facilities provide medical care with ascending degrees of complexity. Role
1 / Echelon II level is provided at ANA Troop Medical Clinics and ANP Regional and Provincial Clinics with a
focus on preventive health care and primary care as well as initial damage control and stabilization of trauma
patients prior to hospital transfer. Role 2+ / Echelon III level is administered at ANA Regional Military Hospitals
and the ANP Hospital in Kabul. These facilities provide the triage, resuscitation, emergency surgery and post-
operative management services to manage trauma in an effort to treat patients until return to active duty or further
stabilize patients for evacuation to the next echelon. Role 3+ / Echelon IV level is administered at the ANA’s NMH
in Kabul. Capabilities include all those offered at lower echelon facilities as well as advanced care including
specialist surgical and medical services, increased ICU capabilities with dialysis, preventive medicine, dentistry, eye
care, inpatient neuropsychiatry, full physical rehabilitation and capacity for convalescence.


                                                          30
dispensed and that adequate time is available to provide training as previously requested by the
medical and nursing staff.

Recommendations
 3.a. NTM-A, in coordination with MEDCOM and NMH, re-assess and validate the number of
 pharmacists and pharmacy personnel that are necessary to support the effective and efficient
 operation of the NMH pharmacy. Additionally, identify and implement interim measures to
 ensure that qualified personnel are available to meet the current workload demands in the
 NMH pharmacy.

Management Comments
NTM-A/CSTC-A concurred with comment to Recommendation 3.a. They acknowledged that
higher patient volume and pharmacy workload placed increasing demands on NMH Pharmacy
staff. Additionally, an insufficient number of pharmacists hindered pharmacy operations and had
the potential to adversely affect the safety and health of patients receiving medical care at NMH.

NTM-A/CSTC-A noted that the proposed 1392 Tashkil showed an increase from five
pharmacists to seven when combining Armed Forces Academy of Medical Science (AFAMS)
pharmacy staff into functional personnel assets in both NMH and AFAMS. Although the
addition of two pharmacists would alleviate some of the demands, a comprehensive analysis of
hospital operations determined that the NMH pharmacy required ten pharmacists to provide full
pharmaceutical services including after-hours coverage. NTM-A/CSTC-A stated that this
recommendation was forwarded for consideration to MEDCOM. Additionally, they noted that
Pharmacists in the next graduating class from Kabul Medical University were slated to fill ANA
positions. Furthermore, there were processes available to recruit Pharmacists from the civilian
sector.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 3.a were partially responsive. We request
additional information regarding what interim measures are in place to ensure that qualified
personnel are available to meet the current workload demands in the NMH pharmacy.
Additionally, we request that NTM-A/CSTC-A provide a timeline and assignment location for
the graduating Pharmacists from Kabul Medical University that are slated to fill ANA positions.




                                               31
This Page Intentionally Left Blank




               32
Observation 4: Nursing Personnel Shortages
Nursing personnel shortages in certain patient care areas at the National Military Hospital
(NMH) could have affected the delivery of safe and effective patient care. Specifically, the
number of nurses assigned and available to work in a particular patient care area may not have
been adequate to provide the nursing care necessary to promote a patient’s healing and recovery.

This is due, in part, to a shortage of nursing personnel that existed throughout the ANA.
Additionally, NMH lacked a specific policy and/or procedure to allow the Chief of Nursing to
distribute the nursing staff between patient care areas. Such a policy would allow for the re-
allocation of available nursing personnel to a ward or other patient care area where there was a
greater demand for the nursing services.

Nursing personnel shortages at NMH and the inability to re-allocate nurses based on patient care
demands could adversely affect the delivery of healthcare and result in a delay in a patient’s
recovery or in worsening of their health status.

Applicable Criteria
Afghan National Army – Approved Tashkil - 1391 National Military Hospital
– Personnel. This worksheet is the approved Afghan National Army personnel authorization
for the NMH for the current solar year, 1391. It provided detailed authorizations by
paragraph/line numbers, rank, military occupational skill, additional skill identifier(s), and
position and required strength, by department.

NTM-A/CSTC-A, “Validation Standards for ANSF Hospitals.” This document
provided a listing of standards and criteria used to evaluate a department’s performance
according to Tier One of the ANSF Healthcare Standards.

Discussion
In 2011 DoD IG reported that ANA medical personnel shortages limited the availability
of medical services to ANSF personnel and hampered the development of an effective,
sustainable ANA healthcare system. Additionally a 2011 MoD IG report identified that
NMH nurses were “working long hours and there were too few nurses working on some
wards which could lead to patient neglect.”

Nurse Staffing at NMH
In July 2012 we noted that several of the busiest patient-care wards continued to
experience nursing personnel shortages. The current Tashkil at the NMH had a thirty
percent increase in nurse authorizations over the past two years; yet the number of
authorized nurses on-hand was just over sixty percent. Although improved, the previous
reported nursing shortages still exist. See Table 4 for a comparison of on-hand nurses
with authorized nurses at NMH for the current and past year.




                                                 33
                    Table 4. Comparison of On-Hand Nurses vs. Authorized Nurses at NMH
                                                                                Nurses

Solar Year                                             On Hand               Authorized             Percentage

NMH SY1391 *                                               130                    206                 63.10%
NMH SY1389 **                                               81                    157                 51.60%
* SY1391 Tashkil and assignment information provided by ANA GS G-1, through MTAG and was current as of 09 JUL 12
** SY1389 Tashkil and assignment information provided by the ANA GS G-1 and was current as of 10 OCT 10
Source: DoD IG SPO

Although a few NMH nursing departments were staffed at 100 percent, the majority of
departments were staffed well below half their required strength. As such, patients were at risk
of not receiving the level of nursing care that was required for their treatment and recovery

            Table 5. Comparison of Nursing Personnel Numbers in Various Departments at NMH
                                                                                      Nurses
Department                                                        On Hand            Authorized             Percentage
Orthopedics Nursing: Ortho-A & Ortho-B                              14                   32                  43.80%
Operating Theatre Nursing                                           10                   30                  33.30%
PACU / ICU Nursing                                                  13                   25                  52.00%
Emergency Room Nursing                                              10                   25                  40.00%
Thoracic Surgery Nursing                                             6                   16                  37.50%
General Surgery Nursing                                              6                   15                  40.00%
Plastic and Burn Nursing                                             6                   13                  46.20%
Top 7 Department by Authorization *                                 65                  156                  41.70%
* SY1391 Tashkil and assignment information provided by ANA GS G-1, through MTAG and was current as of 09 JUL 12; the top
seven (respective of authorization) of 24 nursing departments are listed in this chart.
Source: NTM-A

Prolonged Working Hours
In July 2012, the NMH Chief of Nursing identified that one of his top three challenges was the
shortage of nursing personnel and the high number of hours they worked. He explained that
some nurses worked 32-36 hours straight and that the number of hours worked needed to be
reduced.

The NMH was required to provide nursing coverage 24 hours/day and the lack of government
transportation assets limited transportation options for those nurses covering the evening and
night shifts. Nurses assigned to work overnight started work at eight o’clock in the morning and
continued working overnight and through the next day shift until they were dismissed at four
o’clock in the afternoon for a total of 36 hours.




                                                             34
The continually overworked nursing staff can become exhausted, make mistakes, and provide
poor quality care. Additionally, these working conditions could result in patient maltreatment
and/or neglect, whether intentional or unintentional.

Limited Options to Better Utilize Available Nurses
The nursing personnel shortages at NMH and the prolonged working hours for nurses covering
the evening and night shifts hindered management’s ability to adequately staff the hospital. One
solution would be to cross-level available staff. Some departments in the NMH had more staff
than other sections. Additionally, some patient care areas had a higher patient census 23 and were
busier than other areas. Shifting nurses from an area with lower demand to an area that is
understaffed could help to address this problem.

Cross-leveling or reallocation of the nursing staff at the NMH was not witnessed during our visit
in July 2012. We noted that 45 patients were present on the Orthopedic Ward (mostly war-
related injuries) and had 6 nurses assigned to fill the 13 available nursing positions (46.2% of
authorizations). Additionally, the Ear, Nose and Throat (ENT) ward had seven patients with
three nurses assigned to fill three authorized positions (100% of authorizations). Cross-training
nursing staff to work in various patient care wards (Orthopedics, ENT, Intensive Care Unit)
would permit for the re-allocation of the nursing staff by the Chief of Nursing and/or his
representative based on needs of a particular unit.

Other Factors to Consider
In May 2012, Validation Teams from NTM-A and ANA MEDCOM conducted a joint inspection
of the NMH. By their report, nursing had improved their overall rating to a CM-1A, which is the
highest possible. However, there was no mention made of any difficulties in how the hospital
performed in determining nursing staffing levels based on census and acuity levels, which is a
specific criteria to be measured in the Validation Tool. It would seem appropriate that in future
inspections the validation teams should include consideration of whether the limited numbers of
nurses are best utilized in the patient care areas that have the highest demand for nursing
services.

Furthermore, NTM-A/CSTC-A advisors commented that MEDCOM was working on defining
the role of nursing. As explained by a senior medical advisor, “…the definition/scope of practice
of nursing is varied and ill-defined, as such a ‘nurse’ on the Tashkil encompasses over twenty
positions from ‘nurse housekeepers’ to the more traditional nurse as understood in western
medicine. This continues to skew data somewhat and until this is addressed, the true extent of
the nursing shortage is a moving target.” Accordingly, within the last four to six months a
proposed definition and job description for nursing was forwarded to MEDCOM for
consideration. Once this definition is approved, the Tashkil will undergo a revision and include
a more accurate picture of the number of true nurses (per the approved definition) required to
meet the NMH and MoD mission.

In summary, although improved, overall nursing personnel shortages continued to affect NMH’s
ability to provide safe and effective patient care. In addition, ANA MEDCOM and the NMH

23
     Patient census refers to the number of patients occupying a bed on a patient ward.


                                                           35
lacked policy guidance that would allow for the cross-leveling of available nursing personnel
based on patient acuity and census. This deficiency hindered leadership’s ability to build on
performance, evaluate and instill quality of care, and build the required or desired expectation of
nursing programs and operations.

Since our site visit and feedback provided to the NMH Commander and his advisor on July 3,
2012, MEDCOM has been developing a policy to support cross-leveling of nursing personnel
within the NMH. Additionally, further coordination, between the MEDCOM Advisor and the
ANA Recruiting Command (ANAREC) was underway for developing a policy or action letter on
activities to assess current recruiting practices and to identify and implement measures to fill
current nursing vacancies from the NMH Tashkil.

Recommendations
 4.a. NTM-A, in coordination with MEDCOM and NMH, ensure that policy is established to
 allow for the cross-leveling of nursing personnel based on workload demands within the
 NMH.
 4.b. NTM-A, in coordination with MoD Health Affairs and MEDCOM, ensure that the
 Tashkil identifies the appropriate type and number of nurses required at NMH according to the
 MEDCOM nursing definitions. Additionally, ensure that current recruiting practices are
 reviewed and identify and implement measures to fill current nursing vacancies in the NMH
 Tashkil.
 4.c. NTM-A, in coordination with MEDCOM, consider the addition of criteria to the
 Validation Tool which would allow for the MEDCOM inspectors to evaluate whether the
 NMH is able to shift nursing resources based on patient census and patient acuity.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 4.a noting that the NMH Chief of Nursing
reported that most departments were now staffed well, ranging from 84.6% - 150% and that his
current policy and procedures allowed for the cross-leveling of nursing personnel to any specific
ward or patient care area according to demand.

Additionally, NTM-A/CSTC-A concurred with Recommendation 4.b and noted that
recommended actions were accomplished. According to the NMH Chief of Nursing and
Coalition Senior Nurse Mentor, current overall percentage of authorized Tashkil 1391 is 86.63%
of which the top seven departments by authorization were primarily over 100% filled (with three
at 86.6%, 90% and 93%). Additionally, all nursing personnel had specific written job functions
and descriptions, and undergo semi-annual and annual evaluations as well as verification of
nursing credentials and certificates. The NMH Chief of Nursing agreed that one of his main
challenges was ensuring continuity in his nursing staff as nurses retire or resign. Furthermore,
NTM-A/CSTC-A noted that current recruiting practices were under review by MEDCOM to
address gaps in nursing personnel.

NTM-A/CSTC-A concurred with comment to Recommendation 4.c clarifying that MEDCOM
was moving away from a strict Validation Tool and utilized survey methods instead to determine


                                                36
the effectiveness of hospital practices and processes. This survey method would address
adequacy of staffing in meeting nursing needs relative to patient census and acuity.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 4.a, 4.b, and 4.c were responsive. For
Recommendation 4.a , we request a copy of the 1391/1392 nursing authorizations to include the
number of nursing personnel assigned to each department. Additionally, please provide the
number of authorized beds and corresponding average patient census for each ANA/ANP
inpatient ward so that a comparison can be made between the numbers of nurses assigned to
work a particular inpatient ward and the average patient census. Finally, we request that NTM-
A/CSTC-A provide a copy of the NMH Chief of Nursing policy and procedure specific to the
cross-leveling of nurses.

For Recommendation 4.b we request that NTM-A/CSTC-A provide an update on the review of
ANA nursing recruiting practices and the status of filling nursing vacancies at the NMH in six
months.

For Recommendation 4.c we request that NTM-A/CSTC-A provide a description of the survey
methods used by MEDCOM to assess the adequacy of NMH staffing in meeting nursing needs
relative to patient census and morbidity. Additionally, in six months, we request NTM-A/CSTC-
A provide an update on the adequacy of NMH nursing staffing using the results of NTM-A’s
Validation Tool and associated MEDCOM survey.




                                              37
This Page Intentionally Left Blank




               38
Observation 5. Medical Equipment Repair and Maintenance
Capability
Medical equipment repair and maintenance capability had improved at the NMH but still
required further development. Furthermore, this capability was insufficient and needed
improvement within other areas of the ANA healthcare system including ANA regional hospitals
and clinics.

This was due primarily to the lack of qualified ANA medical equipment repair technicians.
Although Coalition forces had assisted the ANA in establishing Bio-Medical Equipment
Technician (BMET) training at the Armed Forces Academy of Medical Sciences (AFAMS), the
program was in its infancy.

Additionally, a contract for medical equipment repair and maintenance awarded to a private
Afghan company in September 2011 failed to achieve results. This contract was intended to
bridge the gap until ANA BMETs graduated from AFAMS and were available to serve as
medical equipment repair technicians. However, the contractor did not provide the qualified
personnel necessary to serve as biomedical engineers who, therefore, were unable to conduct the
maintenance and repair of ANA medical equipment as required by the contract.

As a result, the ANA lacked sufficient personnel to maintain and repair the medical equipment at
ANA hospitals and clinics, compromising the provision of safe and effective patient care.

Applicable Criteria
DoD 6010.13-M “Medical Expense and Performance Reporting System for
Fixed Military Medical and Dental Treatment Facilities Manual,” April 7,
2008. The manual defines biomedical equipment repair as a function that provides preventive
maintenance, inspection, and repair of medical and dental equipment.

Specific responsibilities of the biomedical equipment repair service included the following:

   •   conduct a systematic inspection of equipment to determine operational status and assign
       serviceability condition codes to equipment,
   •   perform scheduled preventive maintenance of medical and dental equipment,
   •   repair or replace worn or broken parts,
   •   rebuild and fabricate equipment or components, and
   •   modify equipment and install new equipment.

MoD Decree 4.0 “Supported and Supporting Unit Logistics Policy and
Support Procedures,” January 2009. This decree established logistics policy and
procedures for the ANA as a basis for introducing, modernizing and integrating the ANA
logistical system with NATO military logistics doctrine. Specifically, Section 2-1 discussed
maintenance as a logistics function.

NTM-A/CSTC-A “Standards for ANA Hospitals.” This document provided a listing
of standards and criteria for 22 departments and/or sections that were developed for ANA


                                               39
hospitals. The criteria were varied and labeled as Tier One, Tier Two and Tier Three, based on
increasing levels of complexity of the criteria and standards.

NTM-A/CSTC-A “Validation Standards for ANSF Hospitals - Biomedical
Engineering.” A rating tool that provided standards for Biomedical Engineering based on an
early version of ANSF Tiered Healthcare Standards. The standards contain a listing of criteria
that was scored and used to determine the Capability Milestones rating for the Biomedical
Engineering department of a hospital.

Discussion
In June 2011, the DoD IG reported 24 that it was imperative for ANA hospitals to have a
functioning medical equipment repair program to ensure that required equipment was properly
maintained and available for patient care. The report identified that the ANA lacked sufficient
number of BMETs and that medical equipment was not being properly maintained throughout
the ANA. Although we noted improvements in the ANA’s ability to properly maintain and
repair medical equipment during our July 2012 visit, problems persist.

Armed Forces Academy of Medical Sciences (AFAMS) Biomedical
Equipment Technician (BMET) Training Program
NTM-A/CSTC-A in coordination with ANA MEDCOM initiated a BMET training program at
AFAMs in March 2011. The first class of 20 BMETs was expected to graduate in the first
quarter of 2013.

Although initially designed as a 12-month training program, the student’s initial poor literacy
and mathematical skills resulted in extending the length of the training program. Specifically,
additional training was provided in literacy programs and learning the English language to
ensure that BMET students could understand the medical equipment reference manuals, written
in English.

The BMET training program consisted of two phases: Phase 1 included a 12-month period of
didactic training at AFAMs, and Phase 2 consisted of a 6-month on-the-job training program,
which was offered at the NMH and other ANA regional hospitals. Twenty BMET students
completed Phase 1 in June 2012 and were presently engaged in Phase 2. Half of these students
were assigned to NMH for their Phase 2 training and were supervised by ANA biomedical
engineers. The remaining 10 students were assigned to the ANA regional hospitals.

An NTM-A BMET advisor commented that BMET students were currently enrolled in the Phase
2 portion of their training and were doing well in the on-the-job training portion of the
curriculum.

Medical Equipment Repair and Maintenance Program at NMH
In July 2012, there were four biomedical engineers authorized on NMH’s 1391 Tashkil with four
ANA personnel filling the positions (1 supervisor and 3 technicians). These ANA personnel

24
  “Assessment of the U.S. Department of Defense Efforts to Develop an Effective Medical Logistics System within
the Afghan National Security Forces,” released June 14, 2011 (Report No. 2011-007).


                                                      40
were trained in India and had received biomedical engineering as well as English language
training.

The departmental supervisor           Figure 16. NMH Bio-Medical Engineering Department
explained that NMH required
four additional biomedical
technicians for a total of eight.
This requirement was under
consideration by MEDCOM
and reportedly would be
included in the 1392 Tashkil.
As stated earlier, there were
also 10 ANA BMET students
in Phase 2 training at the
NMH who were assisting with
maintenance and repair
functions.

The biomedical repair facility
at NMH was located in a
building adjacent to the       Source: DoD IG SPO
Medical Logistics Warehouse
on the NMH compound. The               Figure 17. Medical Equipment Reference Manuals
repair shop measured
approximately 40 feet x 120
feet and was divided into two
sections. Most of the space
was an open bay with
workshop repair benches and
tools, storage shelving and a
storage area with broken
medical equipment that was
awaiting repair or removal.
The remainder of the space
was a combined conference
room/ office and library
containing medical equipment
repair manuals. The facility
appeared clean and neat and
was not cluttered with broken Source: DoD IG SPO
medical equipment.




                                               41
Lack of Qualified Personnel May                      Figure 18. Free-standing Compressed Gas Cylinders
Impact Patient Safety                                            Found at NMH in July 2012

In July 2012, we observed several free-
standing large cylinders that were used to
store compressed oxygen in patient care
areas. The NMH did not have built-in
oxygen lines and therefore bedside
cylinders were used to deliver oxygen to
needy patients. However, the free-standing
oxygen cylinders posed a safety hazard. A
physical means to secure the cylinders, such
as chaining them to the wall or storing them
in an upright stand, would prevent them
from falling and causing potential damage
or injury to patients and hospital personnel.
A fully functioning and capable biomedical Source: DoD IG SPO
equipment repair department could implement safety controls to prevent such hazards from
occurring.

Biomedical Engineering Capability Milestone Ratings at the NMH
The NTM-A/CSTC-A Validation Team conducted two assessments of NMH’s medical
equipment repair program using the Biomedical Engineering standards. See below for a
summary of these results.


              Table 6. NTM-A/CSTC-A Validation Results for NMH Biomedical Engineering
BIOMEDICAL ENGINEERING                      Overall CM rating           0             1               2
January 2012 (26 elements scored)                 CM-2B                 5             9               12
May 2012 (24 elements scored)                     CM-1B                 6             3               15
Scoring: 0 (no evidence of compliance), 1 (evidence of compliance, however they are inconsistent in
performance), 2 (evidence of consistent compliance)
Source: DoD IG SPO

In a May 2012 visit, the NTM-A/CSTC-A Validation Team reported that it worked alongside the
ANA Validation Team from MEDCOM Quality Improvement, Standards, and Metrics Division
in inspecting the hospital. The Medical Equipment Repair department achieved a rating of CM-
1B, demonstrating that this department was effective in achieving Tier 1 of the Biomedical
Engineering standards with Coalition oversight only.

Bridge Contract for Medical Equipment Repair and Maintenance Support
The CSTC-A initiated a contract to provide medical equipment repair and maintenance support
as an interim measure anticipating that graduating BMETs could eventually fulfill this function.

The contract was awarded to a private Afghan company in September 2011 and was intended to
provide the following:


                                                     42
     •   scheduled and unscheduled maintenance for specific medical equipment,
     •   service of broken equipment to include repair parts,
     •   calibration of equipment and upgrades as needed,
     •   Preventive Maintenance Inspections (PMI),
     •   quality assurance and safety programs and warranties exercised where appropriate, and
     •   documentation and tracking of all manufacturer identified recall actions.

The contractor failed to adequately perform the required work as defined in the Performance
Work Statement (PWS). Qualified repair technicians were not hired, maintenance
documentation was not maintained, and accountability of repair parts was not documented.

The U.S. Central Command Joint Theater Support Contracting Command (Forward), Kabul
Regional Contracting Center in Camp Eggers, Afghanistan issued a Cure Notice 25 to the
contractor on January 28, 2012. This notice identified the areas of non-performance that
required immediate action. The contractor was unable to correct the identified deficiencies and
consequently was issued a Show Cause Notice 26 on July 16, 2012. An order was issued to the
contractor to stop work on July 19, 2012.

Personnel Requirements for Medical Equipment Repair and Maintenance
Program for ANA Regional Hospitals
Although the scope of this particular report was focused on the NMH, the impact of problems
with the medical equipment repair and maintenance support contract was experienced and
observed ANA-wide. There was noticeable improvement in ANA command emphasis to rectify
BMET and biomedical equipment shortfalls; however, progress had been slow. Repairs were
made by available ANA personnel with available repair parts under Coalition supervision and
assistance. However, deficiencies continued since the ANA had been unable to fill all of their
biomedical engineering positions. See below for the status of the number of ANA personnel
assigned to fill positions in Biomedical Engineering Departments at ANA regional hospitals and
other commands.




25
   A Cure Notice is issued to a contractor when the government believes that the contractor’s performance of the
contract is in jeopardy. A specific period of time is given to the contractor to correct any deficiencies that were
identified in the Cure Notice.
26
   A Show Cause Notice is issued to a contractor when the government is considering terminating the contract.


                                                          43
                  Table 7. Comparison of Authorized Positions vs. Fill Rates for ANA Biomedical
                                           Engineering Departments
         Biomedical                                                                                    Mazar-e        Paktiya
                                 NMH        MEDCOM          AFAMS           Herat       Kandahar                                     Total
         Repair Staffing                                                                                Sharif       (Gardez)
         BMET
         Repairmen
                                    3             4             0              1             3             1              1            13
         Authorized on
         1391 Tashkil
         BMET
         Repairmen
                                    3             1             1*             0             0             0              0             5
         Filled on the
         1391 Tashkil
         BMET
         Repairmen in               8             0             0              3             3             3              3            20
         Training
         Other**
         Positions
                                    9             8             2              3             6             3              4            35
         Authorized on
         1391 Tashkil
         Other**
         Positions Filled           3             4             1              0             0             0              0             8
         on 1391 Tashkil
        *The approved 1391 Tashkil did not identify a requirement for AFAMs however a technician was placed there to support the BMET training
        program.
        “Others” include individuals who do not serve as BMET repairmen such as Department Chiefs, administrative assistants, quartermasters,
        administrative non-commissioned officers and others
        Source: DoD IG SPO

Capability Milestone Ratings for Biomedical Engineering at ANA Hospitals
The lack of qualified ANA medical equipment repair technicians and the problems noted
previously has adversely impacted the likelihood of a successful transition in 2014. A Capability
Milestone (CM) rating of CM-1B is the acceptable standard to determine departmental readiness
for transition. Although the NMH successfully achieved a CM-1B rating for their medical
equipment repair department, the other ANA regional hospitals did not. See below for a
comparison of CM ratings for all ANA hospitals.

           Table 8. NTM-A/CSTC-A Capability Milestone (CM) Ratings for Biomedical Engineering
BIOMEDICAL                                                                                                                          Paktiya
                                 NMH                      Herat                    Kandahar          Mazar-e Sharif
ENGINEERING                                                                                                                        (Gardez)
December 2011 –
                                CM-2B                     CM-4                      CM-4                   CM-2B                     CM-4
February 2012
June 2012 –
                                CM-1B                    CM-1A                      CM-4                   CM-2B                     CM-4
October 2012
CM-1A: Capable of autonomous operations
CM-1B: Capable of executing functions with Coalition oversight only
CM-2A: Capable of executing functions with minimal Coalition assistance; only critical ministerial functions are covered
CM-2B: Can accomplish its mission but requires some Coalition assistance
CM-3: Cannot accomplish its mission without significant Coalition assistance
CM-4: The department exists but cannot accomplish its mission
Source: DoD IG SPO




                                                                         44
In summary, the NMH had made some improvement in their medical equipment maintenance
and repair program. However, the organic capability of the ANA to maintain and repair medical
equipment remains limited due to the lack of       Figure 19. Workbench for Bio-Medical Repair
qualified personnel.                                           Technicians at NMH

CSTC-A reported that it intends to re-bid the
contract for medical equipment maintenance and
repair. However, this will likely result in an
award no sooner than the second quarter of
fiscal year 2013. In the interim, personnel
shortages and the lack of a medical equipment
maintenance contract will challenge the ability
of MEDCOM leadership to provide an effective
medical equipment maintenance and repair
program which, in turn, may impact the ANA’s
ability to provide safe and effective patient care.
                                                           Source: DoD IG SPO
After our visit to the NMH, we found improved
cooperation among key leaders within the Coalition, ANSF and GIRoA during the ANSF
Healthcare Shura, 27 sponsored by ISAF on July 17-18, 2012. ANA leaders discussed the need
for the ANSF to assess, validate, and update the MEDCOM’s Tashkil medical equipment lists,
cross-level operational equipment where possible, and ensure that the ANSF purchase, or obtain
by donation from Coalition and NGO sources only the equipment that is necessary, practical, and
cost effective to use, maintain and replace. For example, the Afghan leaders in the Shura agreed
that durable modern mechanical hospital beds would be more useful than sophisticated multi-
purpose electronic hospital beds; likewise, simple bedside ventilators would be more desirable
for the NMH than the installation of an integrated computerized central medical gas distribution
system. These more practical approaches would more effectively support the continued
development and sustainment of the ANA’s healthcare system.




27
  “Shura” is an Arabic word meaning “consultation”. In Afghanistan, meetings involving Afghan and Coalition
leaders are referred to as a shura.


                                                      45
Recommendations
5.a. NTM-A/CSTC-A, in coordination with MEDCOM, develop a plan which ensures that
NMH and other ANA hospitals have a viable medical equipment repair program.

5.b. NTM-A/CSTC-A expedite contracting efforts to ensure that there is executable medical
equipment maintenance and repair capability throughout the ANA.

5.c. NTM-A/CSTC-A, in coordination with MEDCOM, ensure that graduating BMET
technicians are assigned to ANA hospitals based on priorities and needs of the current
medical equipment repair programs.

5.d. NTM-A/CSTC-A, in coordination with MEDCOM, ensure that medical gas containers
and cylinders are properly secured to the floor or wall to prevent them from falling.

Management Comments
NTM-A/CSTC-A concurred with comment to Recommendations 5.a and 5.c noting that the first
class of 20 biomedical equipment technicians was expected to graduate the first quarter of 2013.
They further clarified that the biggest challenge with the training program was the student’s lack
of basic literacy and mathematics skills. Thus, a program that was originally a year long, was
now stretched to two years to include basic education and English language training. Once the
training was completed in February 2013, the graduating biomedical equipment technicians
would be equally distributed to four per ANA regional hospital.

NTM-A/CSTC-A concurred with Recommendation 5.b and noted that NTM-A and ANSF were
actively engaged in establishing a medical equipment maintenance contract owned and managed
by the ANA (assisted by NTM-A advisors) to maintain their medical assets. The NTM-A
Finance officer submitted the contract requirements to ANA medical leadership on December
23, 2012. However, NTM-A/CSTC-A acknowledged that there would be challenges in finding a
contractor with enough medical equipment technicians with the required skill sets.

NTM-A/CSTC-A concurred with Recommendation 5.d noting that the MEDCOM Validation
Team now inspects for compliance on proper securing of tanks/cylinders as part of their
Validation Tool for Facilities.

Our Response
NTM-A/CSTC-A’s comments to Recommendation 5.a and 5.c were responsive. We request that
NTM-A/CSTC-A provide an update on the ANA Tashkil including biomedical equipment repair
positions authorized and positions filled for NMH and each ANA regional hospital in six
months. Additionally, we request NTM-A/CSTC-A provide an update regarding any plans for
additional biomedical equipment repair training at AFAMS.

NTM-A/CSTC-A’s comments to Recommendation 5.b were partially responsive. We request
NTM-A/CSTC-A provide additional information on a proposed timeline to execute a medical
equipment maintenance contract. Given the absence of a viable contract, we also request that



                                                46
NTM-A/CSTC-A provide a summary of interim measures that are in place to ensure that ANA
hospitals, including NMH, have viable medical equipment maintenance and repair programs.

NTM-A/CSTC-A’s comments to Recommendation 5.d were partially responsive. We request
that NTM-A/CSTC-A provide an update on what action was taken by NMH to ensure that all
free-standing medical gas containers and oxygen cylinders were properly chained to the wall or
stored in an upright stand.




                                              47
This Page Intentionally Left Blank




               48
Observation 6. Availability of Essential Medical Equipment
A sufficient quantity of essential medical equipment, such as intravenous pumps, suction
machines, patient monitors, and vital sign machines, was not always available in patient care
areas when needed.

This was because NMH personnel explained that some equipment was not functioning properly
and needed repair. Additionally, hospital personnel were not aware that needed medical
equipment was available in other departments due to an incomplete inventory of NMH medical
equipment. Furthermore, NMH did not have an established policy or procedure that supported
using available medical equipment in more than one patient care area.

As a result, the quality of patient care was adversely impacted. Additionally, existing medical
equipment was underutilized.

Applicable Criteria
ISAF “Afghan National Security Forces (ANSF) Healthcare System
Development Support Plan to COMISAF OPLAN 38302,” dated November
28, 2011. This plan identified the focus areas, transition objectives and lines of operation for
the ANSF and Coalition as they worked towards transition to Afghan lead. Specifically, the plan
stated that a medical equipment inventory is required and incorporated into Tashkils no later than
2012.

Afghan National Army (ANA) – Approved Tashkil - 1391 National Military
Hospital – Equipment. This document is the approved ANA equipment authorization for
the NMH for the solar year 1391, which was current during the time of our visit. The document
included a listing of equipment by type, item name, and quantity relevant to individual
departments at the NMH.

NTM-A/CSTC-A, “Standards for ANA Hospitals.” These healthcare standards were
developed in support of establishing a minimum standard for the operations of the ANSF
healthcare system. They applied to 22 departments and/or sections pertinent to ANSF hospital
operations. The criteria was varied and labeled as Tier One, Tier Two and Tier Three, based on
increasing levels of complexity of the criteria and standards.

NTM-A/CSTC-A, “Validation Standards for ANSF Hospitals: Intensive Care
Unit.” A rating tool developed to provide standards and criteria used to evaluate departmental
performance according to Tier One of the ANSF Healthcare Standards for Intensive Care Units.
This document included, among other things, criteria that require that an Intensive Care Unit
(ICU) has functional equipment to provide care to critically ill patients.

Discussion
The ICU at the NMH had critical medical equipment items that the nurses asserted were
inoperable. They explained that they had 20 patient monitors, of which only 12 were




                                               49
        Figure 20. Intensive Care Unit at NMH              functioning. The monitors were operational but
                                                           missing pulse oximeter 28 cables and were fully
                                                           functional in other monitoring modes. The ICU
                                                           staff also reported that of ten vital signs machines
                                                           three were not functioning and that the Bio-
                                                           Medical Repair department was aware of the
                                                           problem. The nurses did not indicate that they
                                                           had attempted to locate the needed medical
                                                           equipment in other areas of the hospital. Cross-
                                                           leveling such equipment throughout the hospital
                                                           in order to fill critical medical equipment
                                                           shortages on wards such as the ICU offered a
                                                           unique opportunity for NMH leadership to
Source: DoD IG SPO                                        address shortfalls.

Limited Medical Equipment Repair Capability at NMH
During the May 15, 2012 validation of the ICU at NMH, the NTM-A Validation Team also
found deficiencies with medical equipment sustainability and noted that “broken equipment was
not getting repaired.” The inspecting team reported that only three of eight ICU beds had a
functioning suction machine available at the Figure 21. Medical Equipment Awaiting Repair or
bedside. They also noted that some                                 Disposal
equipment was “broken for weeks/months”.
The criteria used by the Validation Team to
evaluate NMH’s compliance with the ANA
healthcare standards identified that essential
medical equipment deficiencies required
correction within eight hours.

Consequently, the ICU at the NMH scored
low during the inspection due in part to the
limited availability of functioning
equipment to provide critical care to the
most seriously ill patients. Observation 5
provides additional detail and
                                               Source: DoD IG SPO
recommendations based on our finding of
the limited medical equipment repair capability throughout the ANA, which hindered the ability
of NMH to effectively support their own medical equipment.

Incomplete Medical Equipment Inventory
The ISAF ANSF Healthcare System Development Support Plan identified that a complete
inventory of medical equipment throughout the ANA, and subsequent incorporation into the
appropriate Tashkil, was to be completed in 2012. The initial milestone for this effort was
February 2012, however, due to performance problems with the contractor responsible for
conducting the inventory, the contract was terminated and a new contract was not yet in place.

28
     A pulse oximeter is used to measure the oxygen saturation level of the blood.


                                                           50
ISAF extended the milestones for the completion of the medical equipment inventory to October
31, 2012. As discussed previously, Observation 5 describes deficiencies identified in the ANA
medical equipment maintenance and repair program, and includes additional detail on the
problems noted with the contractor.

Although, the contractor made an attempt to perform an inventory of medical equipment at the
NMH in 2011, the inventory documents were found to be incomplete. Specifically, 33 of 1046
medical equipment items were not properly allocated to a particular floor or department.
Additionally, 18 of the 20 patient monitors and 10 vital signs machines mentioned previously
could not be located on the inventory documents. This left an unclear picture as to the listing
and quantity of medical equipment in each clinical area. Therefore, NMH leadership was not
aware of medical equipment quantity and availability.

Lack of Policy to Support the                       Figure 22. DoD IG Analyst Examining Patient
                                                                 Treatment Room
Cross-Leveling of Essential
Equipment
The NMH did not have an established policy
or procedure that supported and encouraged
the sharing of medical equipment between
patient care areas. Cross-leveling equipment
from an area of lower demand or patient
acuity to an area with a higher patient census
or patient demand would improve the
efficiency of the medical equipment program.
It would also ensure that the nursing staff who
needed a particular piece of medical
equipment for patient care would have it
available for their use.                        Source: DoD IG SPO


Increased Cooperation Among ANSF Medical Leadership
ANSF medical leaders, including the ANA and ANP Surgeon Generals were cooperating with
each other to build an effective healthcare system. Specifically, during the July 2012 ANSF
Healthcare Shura there was consensus among participating medical leaders to adjust current
ANSF Tashkils by more evenly distributing functional on-hand equipment, follow through on
repairing broken medical equipment, and improve ANSF medical logistics distribution, storage
and accountability.

In summary, the incomplete medical equipment inventory and current Tashkil limited NMH
leadership from effectively managing the scarce medical equipment resources within the
hospital. Additionally, the absence of a command policy which allows for the cross-leveling of
medical equipment hindered the provision of quality patient care. Improved use of medical
equipment will result when procedures are implemented that support reallocation of
underutilized equipment resources between patient care areas.




                                               51
Recommendations:
6.a. NTM-A/CSTC-A, in coordination with MEDCOM, ensure that a medical equipment
inventory is completed throughout ANA medical treatment facilities, including the NMH, and
that medical equipment requirements are validated and included on the Tashkil.

6.b. NTM-A/CSTC-A, in coordination with MEDCOM and NMH, ensure that a process is
established to cross-level medical equipment to ensure that the available equipment is
properly utilized where needed.

Management Comments
NTM-A/CSTC-A concurred with comment to Recommendations 6.a and 6.b noting that medical
equipment inventories were being completed by student biomedical equipment technicians
during their practical training. However, these students were away undergoing officer training
and would complete the inventories after their return in February 2013. Additionally, once the
inventories were completed, the results would be compared to the Tashkil and excess medical
equipment returned to the National Supply Depot for redistribution to facilities needing the item.

Our Response
NTM-A/CSTC-A’s comments to Recommendations 6.a were partially responsive. We request
that NTM-A/CSTC-A provide an update on the status of completion of ANA medical equipment
inventories. Additionally, provide a copy of the completed inventories as well as the updated
ANA Tashkil, which includes a listing of medical equipment and the department where the
equipment is located.

NTM-A/CSTC-A’s comments to Recommendation 6.b were partially responsive. We request
that NTM-A/CSTC-A provide an update on the cross-leveling of medical equipment once the
medical equipment inventories are completed. Additionally, in our report we identified that
NMH did not have a policy addressing the cross-leveling of equipment. We request that NTM-
A/CSTC-A, in coordination with MEDCOM and NMH, ensure that a process is established to
cross-level medical equipment to ensure that the available equipment is properly utilized at the
NMH where and when needed.




                                                52
Observation 7. Availability of Disinfectants
Disinfectants and other cleaning supplies 29 necessary to properly sanitize hospital facilities and
appropriate patient care areas were not consistently available at the National Military Hospital
(NMH).

This was due, in part, to reliance on donations from contributing nations to provide disinfectants
and cleaning supplies that were not always sufficient or timely. Additionally, the ANA did not
properly establish a logistical means to procure the necessary disinfectants and cleaning supplies
as a long-term solution.

As a result, the NMH did not always have the necessary supplies to ensure that all patient care
areas were properly cleaned and disinfected. Consequently, patients, hospital staff and visitors
were at risk for developing a nosocomial infection 30 which could adversely impact their health.

Applicable Criteria
MoD Decree 4.0 “Supported and Supporting Unit Logistics Policy and
Support Procedures,” January 2009. This document is the basic MoD policy guidance
for ANA logistics doctrine and guidance.

NTM-A/CSTC-A “Standards for ANA Hospitals.” This document provides a listing
of standards and criteria for 22 departments or sections that was developed for ANA hospitals.
The criteria are varied and labeled as Tier One, Tier Two and Tier Three, based on increasing
levels of complexity.

NTM-A/CSTC-A “Validation Standards for ANSF Hospitals.” It provides a rating
tool that measures standards and criteria used to evaluate departmental performance according to
Tier One of the ANSF Healthcare Standards. The standards identified for “Infection Control”
are applicable to this observation and include criteria for hand washing and the cleaning and
disinfection of patient treatment areas, medical equipment and other areas of the hospital.
Additional standards apply to “Medical Logistics” that specify that the hospital has a supply
requirement list approved by senior leadership which meets the needs across the ANSF
healthcare system.

Discussion
We noted improvement in the overall appearance and cleanliness of the NMH since 2010.
Recent changes made by the Chief of Hospital Administration resulted in an increase in the
number of housekeepers available to clean the hospital. During our visit in July 2012 we
observed multiple workers mopping the floors, cleaning bathrooms, and making an effort to
minimize clutter and maintain an orderly appearance in patient care wards and other areas such
as the pharmacy and medical logistics warehouse.

However, we found that disinfectants and other cleaning supplies necessary to properly sanitize
the hospital were not always consistently and reliably available. In February 2012, we noted that

29
     Cleaning supplies include general soaps and anti-bacterial disinfectants.
30
     A nosocomial infection is an infection that develops in a hospital setting.


                                                             53
housekeepers were using plain water to mop the floors due to the lack of Dettol, a disinfectant
solution, or other appropriate cleaning solutions. This was particularly challenging due to the
snow, sand, and dirt from the outside that individuals tracked onto the floors of the hospital.
This deficiency was addressed by leadership as adequate quantities of Dettol, Max (similar to a
powdered household and industrial cleaner) and other cleaning supplies were present and in use
during our July 2012 visit.

Weaknesses in the ANA Logistics System
The ANA relied on contributions from donor countries to provide disinfectants and other
cleaning supplies for ANA hospitals and clinics, training centers, and dining facilities. These
cleaning supplies are defined as Class II 31 supplies and therefore are managed by the ANA
support staff without influence by MEDCOM.

ANA did not take appropriate action to establish a demand history and the requirements
necessary for the procurement of the required cleaning supplies when advised by NTM-A to do
so. Consequently, the last regular purchase of disinfectants and cleaning supplies using a CSTC-
A Blanket Purchase Agreement was delivered to the NMH on November 27, 2011.
Additionally, the lack of an established process to procure these supplies resulted in the ANA
initiating three separate emergency purchases to ensure that disinfectants were available for
hospitals, training centers and dining facilities. The last of these emergency purchases arrived in
late May 2012 and was confirmed to be available at NMH in June 2012.

Working Towards a Solution to Improve the Reliable Availability of
Disinfectants
In May 2012 the ANA MEDCOM Commander recognized that the logistical system in place at
that time was insufficient to provide a reliable means of obtaining cleaning supplies required to
properly sanitize ANA hospitals and clinics. He began working with NTM-A/CSTC-A and the
ANA to establish a long-term solution to improve the reliability and availability of disinfectants
and cleaning supplies. One strategy involved identifying specific cleaning supplies such as
bleach, anti-bacterial soap, liquid hand soap, and waterless hand sanitizer as Class VIII 32
supplies which would be closely managed by MEDCOM.

The MEDCOM Commander and NTM-A advisors indicated that the lack of established
procedures for ordering Class II cleaning supplies was not isolated to medical facilities. Other
ANA activities such as dining facilities and training centers also had challenges ordering large
amounts of disinfectants and cleaning supplies.

Improvements Needed in NTM-A Validation Tool
The NMH did not always have disinfectants available to properly ensure the effective cleaning of
patient care areas. However, NTM-A/CSTC-A and MoD had not identified this critical issue
during their inspections.


31
   Class II supplies are clothing, individual equipment, tools, tool kits, tents, administrative and housekeeping type
supplies.
32
   Class VIII supplies are medical supplies, including repair parts for medical equipment.


                                                          54
The Validation Tool used to assess the performance of ANA hospitals had a defined standard for
infection control which addressed hand washing and the cleaning and disinfection of patient
treatment areas, medical equipment, and other areas of the hospital. However the criteria used to
measure this standard lacked sufficient detail regarding the consistent and proper sanitation of
hospitals. The availability and proper use of disinfectants was a critical factor in determining
whether a hospital consistently met the criteria defined by these standards. See Part I: Notable
Progress, “ANSF Healthcare Standards and Validation Tool” and Appendix E for a detailed
description of the ANSF Healthcare Standards and the Validation Tool.

In summary, the sanitary conditions at the NMH had improved since 2010. However, the lack of
an effective logistics system adversely affected the reliable availability of disinfectants and other
cleaning supplies that were required to properly sanitize the hospitals and other communal
establishments such as ANA dining facilities and training sites where multiple individuals reside.
Consequently, the unavailability of these disinfectants may have jeopardized the health and well-
being of patients, medical staff and ANA soldiers throughout Afghanistan.

Additional Progress
Both ANA MEDCOM and NMH leadership recognized the importance of using disinfectants to
properly sanitize all areas of the hospital and were actively engaged with NTM-A and MoD
entities to ensure that adequate cleaning supplies were properly planned for, procured and made
available. Following our visit in July 2012, an NTM-A advisor informed the team that
MEDCOM was successful in adding specific disinfectants and cleaning supplies, such as Dettol,
bleach, hand sanitizer and hand-soap to the Class VIII Authorized Stock List (ASL) and
implemented a procurement process to ensure that appropriate disinfectants and other cleaning
supplies were available when needed. Additionally, appropriate ANA support staff developed
and submitted a requirements list for the Class II cleaning supplies. This action was a key step
and is necessary to ensure the reliable availability of appropriate disinfectants and other cleaning
supplies throughout the ANA.

Recommendations
 7.a. NTM-A/CSTC-A, in coordination with ANA GSG4, MoD Acquisition Technology and
 Logistics (AT&L) and LOGCOM, ensure that procedures are established for the procurement,
 delivery and reliable availability of janitorial cleaning supplies, which includes disinfectants.

 7.b. NTM-A/CSTC-A, in coordination with MEDCOM, ensure that the Class VIII Authorized
 Stockage List is modified to include disinfectants and cleaning supplies. Additionally, ensure
 that these items are included in the 1392 and future Tashkils.

 7.c. NTM-A, in coordination with MEDCOM, ensure that the ANSF Healthcare Standards
 and the NTM-A/CSTC-A Validation Tool include criteria which are specific to the availability
 and use of disinfectants to properly clean and sanitize ANA healthcare facilities.

Management Comments
NTM-A/CSTC-A concurred with Recommendations 7.a, 7.b, and 7.c and noted that required
actions were completed. Specifically, per Recommendation 7.a, the non-medical quartermaster


                                                 55
for Class II cleaning supplies created a requirements list for the appropriate cleaning supplies and
submitted them to the ANA GSG4 who was responsible for the procurement of the necessary
supplies. Additionally, in response to Recommendation 7.b, bleach, Dettol, hand sanitizer, and
hand soap were added to the Class VIII 1391 Authorized Stockage List and medical units
submitted their 1392 requirements to MEDCOM G4 at the beginning of December 2012.
Furthermore, in response to Recommendation 7.c, cleaning and sanitizing protocols as well as
infection control, waste management training, and cleaning schedules for Housekeeping staff
were incorporated into the Validation Tool for Housekeeping.

Our Response
NTM-A/CSTC-A’s comments to Recommendations 7.a, 7.b, and 7.c were responsive. Request
that NTM-A/CSTC-A provide a copy of the NTM-A Validation Tool for Housekeeping which
identifies criteria for the cleaning and sanitizing protocols and infection control, waste
management training, and cleaning schedules for housekeeping staff. Additionally, we request
that NTM-A/CSTC-A provide an update on the procurement, delivery, and reliable availability
of janitorial cleaning supplies, including disinfectants, in six months.




                                                56
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from May 2012 to September 2012, in accordance with the
Quality Standards for Inspections. We planned and performed the assessment to obtain
sufficient and appropriate evidence to provide a reasonable basis for our observations,
conclusions, and recommendations, based on our objectives. Site visits to Afghanistan were
conducted from June 26, 2012 to July 6, 2012.

We reviewed documents such as Federal Laws and regulations, including the National Defense
Authorization Act, the Foreign Assistance Act, the Security Assistance manual, and appropriate
CENTCOM, ISAF, USFOR-A, and CSTC-A guidance. Additionally, we reviewed U.S./NATO,
ISAF, NTM-A/CSTC-A plans, orders, and other guidance associated with the efforts to develop
health care capacity and capability within the NMH, to include reviewing of the published
reports, operational plans and previous inspection and/or assessment reports related to the ANSF
healthcare system and ANSF medical logistics

The scope of our assessment in Afghanistan was to continue oversight of U.S. and Coalition
efforts to improve sanitary conditions and treatment of patients at the Dawood National
Military Hospital (NMH) in Kabul Afghanistan, as well as monitor the development of a
sustainable medical logistics and healthcare capability within the NMH. Specifically, we
assessed progress made since previous DoD IG visits and reviewed the status of U.S. and
Coalition efforts to:

   •   improve the healthcare management, staff attendance and treatment of patients at NMH
   •   remedy poor sanitation conditions
   •   improve medical logistics and pharmacy processes
   •   maintain effective force protection measures for the NTM-A Medical Embedded Training
       Team (METT)
   •   address corrupt activities within the NMH and actions to investigate past allegations

We met with U.S. Military and Coalition members from the NTM-A METT who mentor and
advise at the NMH. We also interviewed NMH executive leaders and other NMH personnel to
determine matters pertinent to the accountability of the medical staff and the ability of patients to
receive prescribed medications and have access to the necessary durable medical equipment to
promote their recovery.

Additionally, we conducted a walk-through of NMH focusing on assessing sanitary conditions of
the hospital as well as the general overall physical condition of the patients. Our visit included
wards where ANA patients were located and the ICU, and other areas including the Pharmacy
and medical supply areas. During our visit to the patient care areas we interviewed 15 patients
and their families. These interviews were structured around the criteria described in the “ANA
Patient Bill of Rights” and pertained to the following: visits by their physician and nurse,
frequency of dressing changes, availability of medications including pain medications, quality of
the food, and cleanliness of the patient care areas.


                                                 57
We also interviewed NTM-A's Healthcare Validation Team to determine NMH's progress in
meeting the established ANA Healthcare Standards.

Furthermore, we met with personnel associated with TF Shafafiyat and received an update on the
Task Force's investigative efforts into allegations of fraud and corruption at NMH.

The NMH Team chronology was:

May – June 2012                       Research and fieldwork in CONUS

June 26, 2012 to July 6, 2012         Fieldwork in Afghanistan

July 5, 2012                          Outbrief to ISAF, IJC and NTM-A/CSTC-A

July – November 2012                  Analysis and report writing

December 2012                         Draft assessment report issued

January 2013                          Management comments received and evaluated

March 2013                            Report published

Limitations
We limited our review to DoD-funded programs, NATO-funded programs, and international
donation programs supporting the security forces of Afghanistan.

Use of Computer-Processed Data
We did not utilize any computer-processed data in this assessment.

Use of Technical Assistance
We did not use technical assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.

AFAMS                  Armed Forces Academy of Medical Sciences
ANA                    Afghan National Army
ANAREC                 Afghan National Army Recruiting Command
ANP                    Afghan National Police
ANSF                   Afghan National Security Forces
ASFF                   Afghanistan Security Forces Fund
ASL                    Authorized Stockage List
AT&L                   Acquisition Technology and Logistics
BMET                   Bio-Medical Equipment Technician
CF                     Coalition Forces


                                                 58
CJMED       Combined Joint Medical Branch
CJSURG      Combined Joint Surgeon
CM          Capability Milestone (a readiness level)
CSTC-A      Combined Security Transition Command-Afghanistan
CSSD        Central Sterile Supply Department
CT          Computed Tomography Scan
DoD         Department of Defense
DoDI        Department of Defense Instruction
DoD IG      Department of Defense Inspector General
DoD OIG     Department of Defense Office of the Inspector General
ENT         Ear, Nose, and Throat
GIRoA       Government of the Islamic Republic of Afghanistan
GS          General Staff
ICU         Intensive Care Unit
IJC         ISAF Joint Command
ISAF        International Security Assistance Forces
IV          Intravenous
LOGCOM      Logistics Command
LOE         Lines of Effort
MEDCOM      Medical Command
MEDLOG      Medical Logistics
METT        Medical Embedded Training Team
MoD         Ministry of Defense (Afghanistan)
MoI         Ministry of Interior (Afghanistan)
MoPH        Ministry of Public Health (Afghanistan)
MRI         Magnetic Resonance Imaging
MTAG        Medical Training Advisory Group
NATO        North Atlantic Treaty Organization
NDS         National Directorate of Security
NGO         Non-Governmental Organization
NMH         National Military Hospital
NTM-A       NATO Training Mission-Afghanistan
OEM         Original Equipment Manufacturer
OTSG        Office of the Surgeon General
PACU        Post-anesthesia Care Units or Postoperative Care Unit
PMI         Preventive Maintenance Inspections
PWS         Performance Work Statement
R&D         Reconciliation and Distribution
SOP         Standard Operating Procedure
SPO         Special Plans and Operations
USC         United States Code
USCENTCOM   U.S. Central Command
USFOR-A     U.S. Forces-Afghanistan




                                    59
This Page Intentionally Left Blank




               60
Appendix B. Summary of Prior Coverage
During the last four years, the DoD, the Government Accountability Office (GAO) and the
Department of Defense Inspector General have issued a number of reports and testimony
discussing the development, accountability and control of logistics and supplies for the
ANSF.

Unrestricted DoD reports can be accessed over be Internet at
http://www.defense.gov/pubs
Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov
Unrestricted DOD IG reports can be accessed over the Internet
http://www.dodig.mil/audit/reports

Some of the prior coverage we used in preparing this report has included:

Congressionally Initiated Reports
Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), as amended, “Report on Progress toward Security and Stability in
Afghanistan,” April and December 2012.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), as amended, “Report on Progress toward Security and Stability in
Afghanistan,” April and December 2011.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), as amended, “Report on Progress toward Security and Stability in
Afghanistan,” April and November 2010.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), as amended, “Report on Progress toward Security and Stability in
Afghanistan,” June and October 2009.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Report on Progress toward Security and Stability in
Afghanistan,” June 2008 and January 2009.

Government Accountability Office
GAO-12-951T, “Long-standing Challenges May Affect Progress and Sustainment of Afghan
National Security Forces,” July 24, 2012.

GAO-10-842T, “Preliminary Observations on DOD’s Progress and Challenges in
DistributingSupplies and Equipment to Afghanistan,” June 2010.

GAO-10-655R, “Strategic Framework for U.S. Efforts in Afghanistan,” June 2010.



                                              61
 GAO-08-661, “Further Congressional Action May Be Needed to Ensure Completion of a
 Detailed Plan to Develop and Sustain Capable Afghan National Security Forces,” June 2008.

Department of Defense Inspector General
DOD IG Report No. 2012-083, “Additional Guidance and Training Needed to Improve Afghan
National Army Pharmaceutical Distribution,” May 7, 2012.

DOD IG Report No. SPO-2011-007, “Assessment of U.S. and Coalition Efforts to Develop the
Medical Sustainment Capability of the Afghan National Security Forces,” June 14, 2011.

DOD IG Report No. SPO-2012-028, “Assessment of U.S. Government and Coalition Efforts to
Develop the Logistics Sustainment Capability of Afghan National Army.” December 9, 2011.

DOD IG Report No. SPO-2010-001, “Assessment of U.S. and Coalition Efforts to Develop the
Medical Sustainment Capability of the Afghan National Security Forces,” March 31, 2010.

DOD IG Report No. SPO-2009-007, “Report on the Assessment of U.S. and Coalition Plans to
Train, Equip, and Field the Afghan National Security Forces,” September 30, 2009.

DOD IG Report No. SPO-2009-001, “Assessment of Arms, Ammunition, and Explosives
Control and Accountability; Security Assistance; and Sustainment for the Afghan National
Security Forces,” October 24, 2008.




                                              62
Appendix C. Summary of Previous DoD IG Work
The DoD IG has been engaged in providing ongoing oversight with respect to U.S. Military and
Coalition efforts to develop the Afghan military health care system, including the NMH, since
2008. Specifically we conducted five assessments, two criminal investigations and one audit. A
description of the major findings from each project is summarized below:

Initial Assessment
In April 2008, the DoD IG conducted its first assessment 33 of DoD efforts to develop the ANSF,
which included the military health care system. We determined that the complexity of medical
stabilization and reconstruction challenges in Afghanistan called for a robust U.S. interagency
and international effort to assist deployed U.S. military medical personnel in developing and
implementing a detailed, multi-year planning strategy. At that time, the U.S. Central Command,
ISAF, and CSTC-A lacked the personnel and other resource capability and expertise to expedite
development of the ANSF health care system.

The report specifically noted that many U.S. military medical mentoring teams were not fully
staffed, particularly those assigned to work with the Afghan police, and the development of ANSF
medical personnel was seriously hampered, moreover, by inadequate U.S. military mentor
headquarters guidance, and pre-deployment and in-country training. Further, we determined that
the ANA Logistics Command was unable to support crucial ANA medical logistics requirements
at NMH, as well as at the ANA Regional Hospitals.

The report concluded that the lack of progress in developing an effective Afghan military health
care and logistical system would require prolonged combat casualty care assistance of ANSF
personnel by the U.S. and other ISAF partner countries, and would delay development of an
independent ANSF medical capability.

Second Assessment
In March 2009, we conducted a follow-up assessment 34 regarding ANSF medical system
development. We determined that CSTC-A lacked a clearly defined plan with an end state goal
for the development of the ANSF health care system and that planning which had previously been
conducted had not been fully coordinated with the Afghan Ministries of Defense and Interior, and
incorporated into their planning and operations. As a result, U.S. Military and ANSF resources
were not being jointly focused, prioritized and executed in support of the development of a
clearly defined and sustainable ANSF health care system, delaying progress in its
accomplishment.




33
   Assessment of Arms, Ammunition, and Explosives Control and Accountability; Security Assistance; and
Sustainment for the Afghan National Security Forces,” released October 24, 2008 (Report No. SPO-2009-001).
34
   Assessment of U.S. and Coalition Efforts to Develop the Medical Sustainment Capability of the Afghan National
Security Forces,” released March 31, 2010 (Report No. SPO-2010-001).



                                                       63
Third Assessment
In November 2010, at the request of the Commander, NATO Training Mission – Afghanistan
(NTM-A)/ CSTC-A, a DoD IG team conducted an assessment 35 of the ANA medical logistics
system, which included the NMH, and made recommendations for strengthening the
accountability and control of medical supplies purchased by DoD and distributed to the ANA
medical system, including the NMH.

Our assessment determined that NTM-A/CSTC-A and the ANA’s Office of the Surgeon General
did not have a coordinated plan to achieve a transition end state, and that accountability and
controls over the receipt, storage, accountability and distribution of pharmaceuticals and other
medical supplies were insufficient to prevent theft, misappropriation, unauthorized use, or
improper distribution.

Furthermore, due to the lack of developed, implemented, and enforced Afghan health care
standards and a related U.S./Coalition mentoring model, it was not possible to provide a properly
resourced and focused medical mentoring capability. Consequently, development of a
sustainable health care system was hampered. The mentoring effort was also significantly
hindered in its progress by having only half of the authorized U.S. personnel which was
insufficient to effectively carry out the mission to support the timely development of the ANSF
medical system.

Fourth Assessment (Quick-Look #1)
In February 2011, responding to concerns identified in an inspection report issued by a joint team
of the Inspectors General of the Afghan Ministry of Defense, and CSTC-A, a DoD IG team
conducted a “quick-look” assessment of the current status of healthcare, personnel, sanitation,
supply and inventory issues at the NMH.

The team found that certain management, medical care and logistical challenges were prevalent.
The NMH was understaffed and lacked sufficient numbers of ANA physicians, nurses,
administrators and other staff. Additionally, there were staffing quality and attendance
problems. In addition, though the Afghan Ministry of Defense had signed an order directing the
transfer of medical logistics, then under the ANA’s Office of Surgeon General /Medical
Command, to the separate ANA Logistics Command in order to gain better MoD management
control, this had not yet occurred.

There also was evidence that medical logistics system delivery of medical supplies to the
hospital’s pharmacy, and from the pharmacy to the patients, was dysfunctional. Further, we
found a number of orthopedic operating tables, valued at over $400,000 each, the use of which
appeared to be beyond the functional capability of the ANSF medical staff and which were still in
their original packing crates.

Moreover, ANSF health care standards had not been defined. Therefore, it had not been feasible
for the U.S./Coalition to build an effectively focused medical mentoring model, one that closely

35
  “Assessment of the U.S. Department of Defense Efforts to Develop an Effective Medical Logistics System within
the Afghan National Security Forces,” released June 14, 2011 (Report No. 2011-007).


                                                      64
linked standards to the necessary supporting health care policy. Established medical standards
and implementing policy were also necessary for the U.S. military and ANA to determine the
resources required in order to accomplish development of the intended end-state transition
capability of the ANA health care system.

DoD Inspector General Visit
In November 2011, the DoD Inspector General at that time visited Afghanistan and Kabul, at
which time he conducted a walk-through of the NMH. He subsequently noted to the
Commander, NTM-A/CSTC-A that although progress had been made at the NMH, there were
still issues that needed to be addressed and that DoD IG intended to continue to maintain
oversight of NMH.

Fifth Assessment (Quick-Look #2)
In February 2012, DOD IG conducted its second quick-look assessment at the hospital. This
visit supported the DoD IG intent to continue oversight activities at the NMH.

The DoD IG team interviewed patients and staff and toured the NMH. We noted improvement
in the sanitary conditions of the hospital as well in the delivery of health care to the patients.
Areas that still needed improvement included the accountability of personnel and the availability
of medications and medical supplies. Additionally, we were informed that progress was being
made at addressing allegations of corruption at the NMH.

Furthermore, we were informed that CURE International had been contracted by NTM-A to
develop tiered (three tiers) health standards for the ANSF based on “Warrior Care.” We
understand that these standards were developed in 2011 and were being circulated through the
ANSF Medical Commands for consideration. NTM-A utilized these standards to develop an
instrument to evaluate performance based on the Tier 1 level of the CURE International
standards. This instrument was called the NTM-A Validation tool and was used by the NTM-A
Validation team in early February to assess the NMH.

DoD IG Investigations
During the past two years, DoD IG has conducted two criminal investigations related to the
ANSF military health care system. The first was initiated based on allegations that a DoD
contractor was not fulfilling its contractual obligations to safeguard U.S. purchased
pharmaceutical supplies provided to the Government of Afghanistan. The investigation
determined that the contract did not require the contractor to maintain inventory control and
accountability of pharmaceutical products after they were turned over to the Government of the
Independent Republic of Afghanistan (GIRoA) and the ANA. After pharmaceutical or other items
are transferred to GIRoA control, DoD IG does not have investigative jurisdiction.

The second DoD IG investigation was initiated based on an allegation that U.S. supplied
pharmaceuticals had been stolen from the ANSF military health care system. Interviews of the
complainant, contractor personnel, as well as current and former U.S. Military personnel
stationed in Afghanistan, determined that any theft of U.S. furnished pharmaceuticals would have
occurred subsequent to the Government of Afghanistan accepting delivery of the
pharmaceuticals. All relevant information was turned over to the anti-corruption Task Force


                                                65
Shafafiyat 36 within ISAF to be provided to the Afghan Minister of Defense and/or Justice and
acted on, as appropriate.

DoD IG Audit
In response to the results of the February 2011 quick-look assessment, DoD IG conducted an
audit 37 to determine whether the pharmaceutical distribution process within the ANA military
health care system was sufficiently effective and secure.

The team found that although the ANA pharmaceutical distribution process had improved since
the NMH inspection in February 2011, the delivery and inventory control processes for
pharmaceuticals at medical facilities and depots required further work. Although Afghan
Logistics Command officials did effectively receive, account for, and prepare pharmaceuticals for
issuance to the forward supply depots and NMH, four of the six medical facilities reviewed either
had no pharmaceutical accountability controls or did not maintain the controls they had.
Specific to NMH, the audit team could not verify the accuracy of the inventory on hand because
the dispensing documentation was not reconciled to the stock accounting record. Further, none
of the six medical facilities reviewed properly used or completed required Afghan Ministry of
Defense supply forms.

In addition, Afghan Medical Command officials, in coordination with CSTC-A, had not
developed procedures instructing medical facility personnel how to implement logistics
guidance, and to collect and accurately report on pharmaceutical usage data. As a result, the ANA
could not rely upon this data to develop sound pharmaceutical supply requirements, and there
was an unacceptable risk of mismanagement, theft, and waste of U.S. funded pharmaceuticals.




36
   Task Force Shafafiyat’s mission is to plan and implement ISAF anti-corruption efforts, and integrate intelligence
with planning, operations, engagement, and strategic communications. It integrates U.S. anticorruption activities
with key partners in the international community and the Government of Afghanistan.
37
   “Additional Guidance and Training Needed to Improve Afghan National Army Pharmaceutical Distribution,"
released May 7, 2012 (Report No. DODIG-2012-083).



                                                         66
Appendix D. Criteria
U.S. Department Of Defense
Department of Defense 6010.13 - Manual “Medical Expense and
Performance Reporting System for Fixed Military Medical and Dental
Treatment Facilities Manual,” April 7, 2008. The manual, among other things, defines
biomedical equipment repair as a function which provides preventive maintenance, inspection,
and repair of medical and dental equipment. Specific responsibilities include the following:
conducts a systematic inspection of equipment to determine operational status, and assigns
serviceability condition codes to equipment; performs scheduled preventive maintenance of
medical and dental equipment; repairs or replaces worn or broken parts; rebuilds and fabricates
equipment or components; and modifies equipment and installs new equipment.

International Security Assistance Force (ISAF)
ISAF “Afghan National Security Forces (ANSF) Healthcare System
Development Support Plan to COMISAF OPLAN 38302,” dated November
28, 2011. This transition plan was developed to guide Coalition efforts in their assistance to
the ANSF in the development of their healthcare system. The transition objective for the ANSF
is focused on Warrior Care and provides health support to the ANSF member from recruitment
through to discharge in both outpatient and inpatient settings. Specifically, this plan identifies
the focus areas, transition objectives and lines of operation for the ANSF and Coalition as they
work towards transition to Afghan-lead.

Standard Operating Procedure HQ-01149, “ISAF / Coalition Medical Rules
of Eligibility,” dated December 15, 2011. This procedure outlines and establishes the
principles of eligibility and entitlement to ISAF and Coalition Force medical care and
transportation provisions for patients and casualties within the Combined Joint Operational Area.

North Atlantic Treaty Organization (NATO) Training Mission – Afghanistan
(NTM-A)/Combined Security Transition Command – Afghanistan (CSTC-A),
“Standards for ANA Hospitals.” Healthcare standards developed in support of
establishing a minimal standard for the operations of the ANSF healthcare system. These
standards and criteria were developed for 25 departments and/or sections pertinent to ANSF
hospital operations. The criteria is varied and labeled as Tier One, Tier Two and Tier Three,
based on increasing levels of complexity of the criteria and standards. These standards are
commonly referred to as the ANSF Healthcare Standards.

NTM-A/CSTC-A, “Validation Standards for ANSF Hospitals.” A rating tool
which provides the standard and criteria used to evaluate a departments performance according
to Tier One of the ANSF Healthcare Standards.




                                                67
Afghanistan Ministry of Defense (MoD)/Afghan National Army
(ANA)/ANA Medical Command
MoD Decree 4.0 “Supported and Supporting Unit Logistics Policy and
Support Procedures,” January 2009. This decree describes common procedures,
formats, and forms for the communication of logistic information between supported activities
and the supply and materiel management of the MoD.

Afghan National Army (ANA) – Approved Tashkil - 1391 National Military
Hospital – Equipment. This document is the approved ANA equipment authorization for
the NMH for the solar year 1391, which was current during the time of our visit. The document
includes a listing of equipment by type, item name and quantity relevant to individual
departments at the NMH

Afghan National Army – Approved Tashkil - 1391 National Military Hospital
– Personnel. This document is the approved ANA personnel authorization for the NMH for
the solar year 1391, which was current during the time of our visit. The document includes a
listing of authorized staff positions detailed by paragraph/line numbers, rank, military
occupational skill, additional skill identifier(s), position and required strength, by department at
NMH.

MEDCOM “Policy Regarding Control of Medications,” dated August 5, 2012,
(Solar Year 15-5-1391).” This Afghan policy provides guidance pertinent to accountability
and control measures in ANA pharmacies which prevent waste and misuse of medications.
Specifically, this policy addresses the stocking and control of medications; distribution of
medications to eligible patients; and required accountability reports.

ANA National Military Hospital, Kabul “Policies and Procedures of the
Pharmacy Department” Revised 2012 (Solar Year 1391). This manual describes
the policies and procedures pertinent to the pharmacy at NMH including job responsibilities for
pharmacy personnel, procedures for the security and storage of pharmaceuticals and guidelines
for the management and dispensing of medications.




                                                 68
Appendix E. Afghan National Security Forces
(ANSF) Healthcare Standards and Development
of Validation Tool
Development of ANSF Healthcare Standards
CURE International was contracted by NTM-A/CSTC-A in March 2010 to develop tiered
healthcare standards based on Warrior Care 38 for the ANSF. CURE International‘s final
product, “ANSF Healthcare Standards” was delivered in April 2012 and was designed to
improve the healthcare system to a level of quality or excellence that is accepted as the norm or
by which actual attainments are judged. Additionally, as part of the contract, CURE
International provided training to ANSF medical personnel on how to use and grade the
standards.

Each of the following areas represented the specific standards that were developed by CURE:

        Anesthesia                                                    Laboratory
        Biomedical Engineering                                        Medical Logistics
        Blood Banking                                                 Nursing
        Central Sterilization and Supply Department                   Obstetrics
        Emergency Room                                                Operating Theater
        Facilities                                                    Outpatient Department
        Hospital Leadership Council                                   Patient Administration
        Human Resources                                               Pediatrics
        Infection Prevention                                          Pharmacy
        Intensive Care Unit                                           Radiology
        Internal Medicine                                             Surgery

Additionally, CURE International used a “tiered” approach in developing the ANSF Healthcare
Standards, whereby successive “tiers” represented a graduated measurement of capabilities based
on defined standards and criteria. Specifically, Tier 1 standards demonstrated functions of a
basic, self-sustaining healthcare system; Tier 2, a self-sustaining healthcare system with limited
advance capabilities; and Tier 3 standards represented advanced capabilities and included criteria
for credentialing and advanced certifications.

Furthermore, the ANSF Healthcare Standards provide a guideline to help focus NTM-A advisory
and mentoring efforts.

NTM-A Validation Tool
NTM-A used the standards produced by CURE International as the foundation to develop a
comprehensive tool and relevant specific criteria to assess each standard at the Tier 1 level.
Given that the ANSF Healthcare Standards were intended to be based on Warrior Care, NTM-A
38
 ISAF defines ‘Warrior Care’ as caring for the ANSF member from recruitment throughout his time in the ANSF
which includes care aimed at the prevention of ill health, and treatment of any illness or injury while serving.


                                                       69
excluded Obstetrics and Pediatrics Standards developed by CURE International and included
Dental and Physical Therapy when they developed their assessment tool.

The Validation Tool was used by NTM-A to assess each ANSF hospital beginning in December
2011. Each hospital department or specific functional area was scored based on the level of
compliance in attaining the relevant criteria. Specifically, the following scoring methodology
was used: Score of 0 (no evidence of compliance); Score of 1 (evidence of compliance, however
they were inconsistent in performance) and; Score of 2 (evidence of consistent compliance).

Validation Tool Used to Determine Capability Milestone (CM) Ratings
The scores derived from the Validation Tool were used to determine the level of compliance by
individual departments. These scores were compiled into a metric that was used to determine a
CM rating for each area assessed, as well as an overall CM rating for the hospital. The CM
rating identified the level of current capabilities that served as a forecast to when the hospital will
most likely be ready to transition to Afghan-lead.

There are six milestones ranging from CM-4 through CM-1A. Specifically the ratings are
defined as follows:

   •   CM-4 indicates the institution cannot accomplish its mission.
   •   CM-3 indicates the institution cannot accomplish its mission without significant coalition
       assistance.
   •   CM-2B indicates the institution can accomplish its mission with some coalition
       assistance.
   •   CM-2A indicates the institution is capable of executing functions with minimal coalition
       assistance.
   •   CM-1B indicates the institution is capable of executing functions with coalition oversight
       only.
   •   CM-1A indicates the institution is capable of autonomous operations with reduced
       coalition oversight.

Validation Team Assessments
NTM-A intends to conduct quarterly assessments of all ANA hospitals using the Validation Tool
to determine CM ratings. The goal for transition is to achieve a CM-1B rating for the Tier 1
Healthcare Standards. The initial round of inspections began in December 2011 and ended in
February 2012.

The second round of inspections began in May and ended in September 2012. NTM-A’s
Validation team worked side-by-side with the ANA’s Validation Team from MEDCOM’s
Quality Improvement, Standards, and Metrics Division during this second round of inspections.
See Table 9 and 10 for a summary of the last two inspections.

Future assessments will continue on a quarterly basis by the NTM-A Validation Team, and semi-
annually by MEDCOM’s Validation team.




                                                  70
Additionally, the results of the Validation Team’s assessments help to guide and prioritize NTM-
A’s advisory efforts. Specifically, they will focus their mentoring efforts on those departments
who have yet to achieve a CM-1B rating.

            Table 9. NTM-A Validation Tool and Associated Capability Milestones (CM) Ratings for
                        ANA and ANP Hospitals for December 2011-February 2012
                                                                                    Mazar-e
                Departments              ANPH       NMH        Herat     Kandahar               Paktiya
                                                                                    Sharif
   Anesthesia                              CM2B      CM-2B      CM-2B      CM-2A       CM-2B      CM-1B
   Bio-Medical Repair                       CM4      CM-2B        CM-4       CM-4      CM-2B       CM-4
   Blood Bank                              CM2A      CM-1B      CM-2A      CM-2A       CM-2B      CM-2A
   CSSD                                     CM3      CM-2B       CM2B        CM-3      CM-2B      CM-2A
   Dental                                   CM4      CM-1B        CM-3       CM-3      CM-1B      CM-2A
   Emergency                                CM3      CM-2B      CM-2B        CM-3      CM-2A      CM-2A
   Facilities Management                    CM3      CM-2B      CM-2B      CM-2B       CM-2B      CM-2B
   Human Resources                         CM2B      CM-1B      CM-1B        CM-3      CM-2A      CM-2B
   ICU                                       N/A     CM-2A        CM-3       CM-3      CM-2B      CM-2A
   Infection Prevention                     CM3       CM-3        CM-3     CM-2B        CM-3      CM-1B
   Internal Medicine                       CM2B      CM-2A      CM-2B      CM-2B       CM-2B      CM-2A
   Laboratory                              CM1B      CM-2A      CM-2A      CM-2B       CM-2A      CM-2B
   Leadership Council                      CM2B      CM-1B      CM-2B      CM-2B       CM-1B      CM-1B
   MEDLOG                                    N/A     CM-1B        CM-4       CM-3      CM-2B      CM-2A
   Nursing                                 CM2B      CM-2B      CM-2B      CM-2A      CM-2B       CM-2A
   Operating Theater                        CM3       CM-3        CM-3     CM-2B      CM-2B       CM-1B
   Outpatient                              CM2B      CM-2A        CM-3       CM-3     CM-2B       CM-2A
   Patient Administration                  CM2A      CM-1B      CM-2A      CM-2A      CM-1B       CM-1B
   Pharmacy                                 CM3      CM-2A      CM-2B      CM-2A      CM-1B       CM-2B
   Pharmacy Clinic                          CM3      CM-2A         N/A        N/A         N/A        N/A
   Physical Therapy                          N/A     CM-1B        CM-3       CM-3     CM-2A       CM-2B
   Preventative Medicine                   CM2B      CM-2A      CM-2B      CM-2B      CM-2A       CM-1B
   Radiology, Ultrasound, CT, MRI           CM3       CM-3      CM-2B      CM-2B      CM-2B       CM-2A
   Surgery                                 CM2B      CM-1B      CM-2B      CM-2B      CM-2B       CM-2B
   Polyclinic Laboratory                     N/A     CM-2A         N/A        N/A         N/A        N/A
   Polyclinic Radiology                      N/A      CM-3         N/A        N/A         N/A        N/A
   OVERALL RATING                           CM3      CM-2A      CM-2B      CM-2B      CM-2B       CM-2A
   Color-Coding is based on the level of CM rating with red as the lowest level of CM-4; Orange as CM-3;
   Yellow as CM-2B; and variations of green for CM-2A, CM-1B and CM-1A. CM1B is the goal to determine the
   readiness towards transition
  Source: NTM-A




                                                    71
 Table 10. NTM-A Validation Tool and Associated Capability Milestones (CM) Ratings for
                ANP and ANA Hospitals for June 2012 – October 2012
                                                                            Mazar-e
         Departments         ANPH         NMH        Herat     Kandahar                 Paktiya
                                                                            Sharif
Anesthesia                    CM-1B       CM-2A       CM-1B       CM-1A       CM-1B       CM-1B
Bio-Medical Repair            CM-2B       CM-1B       CM-1A         CM-4      CM-2B         CM-4
Blood Bank                    CM-1B       CM-1A       CM-1A       CM-1B       CM-1B       CM-1A
CSSD                          CM-2A       CM-1A       CM-1B       CM-1B       CM-1A       CM-1A
Dental                        CM-1B       CM-1A       CM-1A       CM-2A       CM-1A       CM-1A
Emergency                     CM-2A       CM-2A       CM-1B       CM-1B       CM-1B       CM-1B
Facilities Management           CM-3      CM-1B       CM-1A       CM-1B       CM-1B       CM-1B
Human Resources               CM-2A       CM-1A       CM-1A       CM-1A       CM-1A       CM-1A
ICU                                NA     CM-1A       CM-1A       CM-1B       CM-1A       CM-1A
Infection Prevention          CM-2B       CM-1B       CM-2B       CM-2B       CM-1A       CM-1A
Internal Medicine             CM-1A       CM-1A       CM-1A       CM-2A       CM-1A       CM-1A
Laboratory                    CM-1B       CM-1A       CM-1A       CM-1A       CM-1A       CM-1A
Leadership Council            CM-1A       CM-1A       CM-1A       CM-1B       CM-1A       CM-1A
MEDLOG                        CM-1B       CM-1A       CM-1A       CM-1A       CM-1A       CM-1A
Nursing                       CM-1B       CM-1A       CM-1B       CM-1A       CM-1A       CM-1A
Operating Theater             CM-2A       CM-1A       CM-1B       CM-2A       CM-1A       CM-1A
Outpatient                    CM-1A       CM-1A       CM-1A       CM-1A       CM-1B           NA
Patient Administration        CM-1B       CM-1A       CM-1A       CM-1A       CM-1A       CM-1A
Pharmacy                      CM-2A       CM-1A       CM-1A       CM-1A       CM-1A       CM-1A
Pharmacy Clinic                    NA          NA         NA          NA          NA          NA
Physical Therapy              CM-2A       CM-2A       CM-1A       CM-1A       CM-1B       CM-2B
Preventative Medicine         CM-1B       CM-2A       CM-2A       CM-2A       CM-1B       CM-1A
Radiology                     CM-1B       CM-1B       CM-2A       CM-1A       CM-1B       CM-1A
Ultrasound                         NA     CM-1B       CM-2B       CM-1B       CM-1A       CM-1A
MRI                                NA     CM-2A           NA          NA          NA          NA
CT                                 NA     CM-2A           NA          NA          NA          NA
Surgery                       CM-1B       CM-1A       CM-1A       CM-1A       CM-1B       CM-1B


OVERALL                       CM-2A       CM-1B       CM-1B       CM-1B       CM-1B       CM-1B


Color-Coding is based on the level of CM rating with red as the lowest level of CM-4; Orange as
CM-3; Yellow as CM-2B; and variations of green for CM-2A, CM-1B and CM-1A. CM1B is the
goal to determine the readiness towards transition
Source: NTM-A




                                               72
Appendix F. Afghan National Security Forces
(ANSF) Healthcare System Development Support
Plan to COMISAF OPLAN 38302
The ISAF with input from IJC, NTM-A/CSTC-A and United States Forces Afghanistan
(USFOR-A) staff officers and medical planners, and discussed with ANSF leadership, developed
and published a medical transition plan in November 2011. The vision driving the planning
effort, and the ANSF Healthcare System development effort overall, was “quality warrior care,
from point of injury through a professional, ethical, effective and efficient medical system, to
recovery and discharge, for the nation’s defenders.”

Warrior Care, for the purposes of this plan, was care for the ANSF member from recruitment
throughout his time in the ANSF. Additionally, the focus of the care provided was aimed both at
prevention of ill health, and at treatment of any illness or injury while serving. Specifically the
components involved in Warrior Care are the following:

   •   force health protection,
   •   primary care, that is, routine treatment of sickness and minor injuries,
   •   point of injury care and ground medical evacuation from the battlefield or other
       emergency situation,
   •   damage-control resuscitation,
   •   damage-control surgery, and
   •   secondary care in hospitals ,whether for illness or injury.

The focus areas of this plan and corresponding transition objectives were as follows:

Organization - “The organization of the ANSF medical system will be optimized in terms of
core processes, sustainable tashkil, clear and reliable command and control, and capability
laydown, thereby ensuring maximal efficiency of healthcare delivery.”

Personnel - “Effective operation of an ANSF-developed, requirements-driven, personnel
management system that continuously adapts to meet the changing needs of the Afghan
healthcare system and results in optimal staffing, with appropriate geographic distribution.”

Education and Training - “A standards-based, ethics driven system of education and training that
produces professional and competent healthcare providers, administrators, and technicians that is
responsive to enterprise requirements, adaptive to emerging demands, and sustainable.”

Evacuation - “An efficient sustainable ANSF ground casualty evacuation capability, tailored to
geographical region, with developing en route care capability.”

Quality Management - “An enduring culture of quality will exist within the ANSF health
systems, manifest by continuously improving metrics of clinical outcomes, independently
fostered by ANSF quality management experts and programs. Ideally, the ANSF culture of


                                                73
quality will spur the development of and be supported by a culture of quality within the broader
health systems within Afghanistan, as reflected in national quality and credentialing standards.”

Logistics - “A requirements-driven and accountable requisition, receipt, reconciliation and
distribution medical logistics process, embedded within the MoD and MoI logistics and aligned
to ANSF clinical needs.




                                                74
Appendix G. ANA Patient Bill of Rights
ANA MEDCOM developed a set of standards which described activities and behaviors which
patients can expect when they are hospitalized in an ANA hospital. These standards were referred
to as the ANA Patient Bill of Rights and are posted in Dari in areas throughout the hospital

       Figure 23. ANA Patient Bill of Rights




       Source: NTM-A




                                               75
This Page Intentionally Left Blank




               76
Appendix H. Management Comments
Commander, ISAF Comments




                           77
Commander, IJC Comments




                          78
NTM-A Comments




                 79
80
81
82
83
84
85
86
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                           4800 Mark Center Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Alexandria, VA 22350-1500





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                  Report                        www.dodig.mil/hotline
                                                                                                                                                                                  Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
